<html>
<title> - PROBLEMS WITH EPA'S BROWNFIELDS CLEANUP REVOLVING LOAN FUND PROGRAM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  PROBLEMS WITH EPA'S BROWNFIELDS CLEANUP REVOLVING LOAN FUND PROGRAM

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 1999

                               __________

                           Serial No. 106-86

                               __________

            Printed for the use of the Committee on Commerce


                    U.S. GOVERNMENT PRINTING OFFICE
61-041 CC                   WASHINGTON : 2000


                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Ahern, Thomas P., Senior Project Manager for Brownfields and 
      Industrial Development, Boston Redevelopment Authority.....    98
    Fields, Hon. Timothy, Jr., Assistant Administrator, Office of 
      Solid Waste and Emergency Response, U.S. Environmental 
      Protection Agency; accompanied by Linda L. Garczynski, 
      Director, Outreach and Special Projects Staff..............     6
    Foss, Darsi, Wisconsin Department of Natural Resources.......   111
    Malloy, Hon. Dannel P., Mayor, City of Stamford..............   104
Material submitted for the record by:
    Fields, Hon. Timothy, Jr., Assistant Administrator, Office of 
      Solid Waste and Emergency Response, U.S. Environmental 
      Protection Agency, undated letter to Hon. Fred Upton, 
      enclosing response for the record..........................   127

                                 (iii)

  


  PROBLEMS WITH EPA'S BROWNFIELDS CLEANUP REVOLVING LOAN FUND PROGRAM

                              ----------                              


                       THURSDAY, NOVEMBER 4, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:40 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Burr, Blunt, 
Bryant, Bliley (ex officio), McCarthy, and DeGette.
    Staff present: Mark Washko, majority counsel; Eric Link, 
majority counsel; Amy Davidge, legislative clerk; and Edith 
Holleman, minority counsel.
    Mr. Upton. Good morning, everybody. Thank you for coming.
    Today, the subcommittee will examine the EPA's Brownfields 
Cleanup Revolving Loan Fund Pilot Program. EPA created this 
program in 1997, selecting 21 local governments and three 
States to receive grants totaling more than $8 million for the 
purpose of setting up revolving loan funds that would help 
finance brownfield cleanups.
    Despite the fact that not a single one of these original 
pilots has been able to successfully make a loan under this 
program, EPA expanded the program fourfold in 1999--granting 
more than $30 million to an additional 45 pilots. To date, only 
one loan, for $250,000, has been made to facilitate cleanup 
under this program, and that loan was made just last month by a 
1999 pilot city, Stamford, Connecticut, whose Mayor will 
testify today.
    In simple terms, this program, which now accounts for more 
than a third of all EPA brownfields spending, is not achieving 
the desired results as quickly as anyone, including EPA, has 
imagined it would. While it is too soon to judge the 
performance of the 1999 pilots, it is certainly not too soon to 
begin an examination of the problems that so obviously are 
plaguing the original 24 pilots, so that we can make sure that 
the 45 new pilots have a greater chance of success. This 
hearing is all the more important in light of EPA's plans to 
double the number of pilots again next year, with an additional 
$35 million in grants.
    Today's hearing hopefully will shed some light on why this 
program so far has not had any measurable effect on brownfields 
cleanup and redevelopment, and how the program can be improved 
to speed progress.
    Clearly, EPA did not do an adequate job of ensuring that 
its initial pilots had both the capability and commitment to 
run such a program, something that EPA now admits. Further, and 
as now EPA concedes, the Agency was more interested in getting 
the original grants out the door than making sure that it had a 
sound program in place to begin with. The result of the 
Agency's failures in these areas was that, and I quote from 
EPA's own testimony, many communities were uncertain as to the 
best way to proceed, end quote. Based on the record so far and 
what we will hear today, that could certainly be viewed as an 
understatement.
    This program also clearly suffers from the fact that it is 
tied procedurally, substantively, and financially, to the 
Superfund program. I am pleased to note that this committee is 
moving to address the statutory concerns in its recently passed 
Superfund reform legislation, which de-links brownfields from 
the Superfund trust fund and its many onerous and unnecessary 
restrictions and requirements. But the administration opposes 
the bill; thus, we cannot count on these changes to improve the 
program in the short term.
    That is why this is an oversight hearing, to examine how 
this program operates under current law and ways that it can be 
improved within the existing framework. Let's all remember that 
EPA created the program on its own, without statutory 
authorization or any mandate from the Congress. EPA always has 
had the power to modify its Superfund regulations for 
brownfields programs such as this one, if it had chosen to do 
so. As EPA staff now admit, EPA must take its own steps to 
streamline the rules and regulations it has chosen to impose on 
these grantees to ensure that cleanups are not delayed by 
unnecessary requirements. It is troubling that EPA did not do 
so prior to showering grantees with tens of millions of 
dollars, virtually all of which remains idle due, in part, to 
this failure.
    Let me just say that I think that all of the members here 
want to improve the program so that these moneys result in real 
achievements for the American people. I look forward to the 
testimony today, and I yield to the chairman of the full 
committee, Mr. Bliley.
    [The prepard statement of Hon. Fred Upton follows:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                      Oversight and Investigations
    Today the subcommittee will examine the Environmental Protection 
Agency's Brownfields Cleanup Revolving Loan Fund Pilot Program. EPA 
created this program in 1997 in order to facilitate the cleanup of some 
of the estimated 450,000 brownfield sites across the country. The 
Agency selected 21 cities or counties and three States to receive 
grants totaling more than $8 million for the purpose of setting up 
revolving loan funds that would help finance cleanups and lead to the 
redevelopment of brownfields.
    Despite the fact that not a single one of these original pilots has 
been able to successfully make a loan under this program, EPA expanded 
the program four-fold in 1999--granting more than $30 million to an 
additional 45 pilots. To date, only one loan, for $250,000, has been 
made to facilitate cleanup under this program, and that loan was made 
just last month by a 1999 pilot city, Stamford, whose Mayor will 
testify today.
    In simple terms, this program--which now accounts for more than a 
third of all EPA brownfields spending--is not achieving the desired 
results as quickly as anyone, including EPA, had imagined it would. 
While it is too soon to judge the performance of the 1999 pilots, most 
of whom have just received the EPA grant money, it certainly is not too 
soon to begin an examination of the problems that so obviously are 
plaguing the original 24 pilots, so that we can make sure that the 45 
new pilots have a greater chance of success. This hearing is all the 
more important in light of EPA's plans to double the number of pilots 
again next year, with an additional $35 million in grants.
    Today's hearing hopefully will shed some light on why this program 
so far has not had any measurable effect on brownfields cleanup and 
redevelopment, and how the program can be improved to speed progress in 
these areas.
    Based on the Committee's review of this matter so far, there appear 
to be several key reasons that explain why the 1997 pilots have not 
made any loans to date. The first reason is that EPA did not ensure 
that the pilots it selected had the necessary legal, technical, and 
administrative capability to establish and administer a brownfields 
cleanup revolving loan program. In other words, EPA did not rigorously 
apply its own criteria and standards--something EPA has admitted in 
meetings with Committee staff. For example, a common source of trouble 
among pilots has been acquiring the necessary legal authority from 
either State or other municipal entities to run such a program, while 
another has been identifying and funding a manager to oversee the loan 
fund. But both of these are threshold criteria under EPA's own 
selection guidelines, which means that if they were not satisfied, no 
grant should have been awarded in the first place.
    Second, and as EPA apparently concedes in its own testimony today, 
the Agency was more interested in getting the original grants out the 
door than making sure it had a sound program in place to begin with. 
Thus, EPA admits that the administrative manual for this program--which 
details the program requirements and other important specifics about 
loans and cleanups--was not finalized until eight months AFTER the 
initial pilots were awarded. And it was not until October 1998--a full 
year after EPA awarded the grants--that EPA provided the pilots with 
model terms and conditions regarding further specific requirements of 
the program. The result of the Agency's failures in these areas was 
that, and I quote from EPA's own testimony, ``many communities were 
uncertain as to the best way to proceed.'' Based on the record so far 
and what we'll hear today, that certainly is an understatement.
    Indeed, several 1997 pilots have told us that EPA had to encourage 
them to apply because the pilots themselves did not understand the 
program requirements or thought that they could not properly run such a 
program. EPA simply told them to apply, and that all the specifics 
would be worked out later. Notably, the EPA Inspector General issued a 
report in March 1998 that made a similar finding, but in a letter to 
Chairman Bliley earlier this year, EPA denied having to encourage any 
pilot to apply for the grant.
    Other 1997 pilots have told us that the program is simply not a 
priority for them, that they have other funding sources available for 
brownfields cleanup from both the State and Federal levels and are 
utilizing those programs. In such cases, I see little reason for EPA to 
permit the continued tie-up of the Agency's scarce brownfields funds, 
and the Agency should take action to de-obligate these monies.
    It's been more than two years since these initial pilots were 
awarded, and while some have made substantial progress toward making 
their first loan, many others still are struggling just to get off the 
ground. EPA promises further workshops and conferences to assist these 
pilots better understand the program requirements and what needs to be 
done. But it seems to me that a well-thought-out program, from the 
beginning, would have provided these communities with sufficient 
information up front, and would have screened out those without the 
capability or commitment to run such a program.
    Finally, the program clearly suffers from the fact that it is tied, 
procedurally, substantively, and financially, to the Superfund program. 
Most of the pilots--including Boston, who is here today--have blamed 
this fact for the delays in establishing an approved program, and 
finding appropriate sites and willing borrowers. While some of the 
substantive restrictions imposed on these grants--such as the bar on 
using Superfund money for the cleanup of petroleum-contaminated sites, 
for example--originate in statute, many of the onerous administrative 
and procedural requirements imposed on grantees and borrowers under 
this program are the result of EPA's administrative decision to apply 
its comprehensive National Contingency Plan regulatory regime virtually 
lock, stock and barrel to this very different program area.
    I am pleased to note that Congress, and this Committee in 
particular, is moving to address the statutory restrictions that impede 
the redevelopment of brownfields. In particular, the bill recently 
passed by the full Committee--H.R. 2580--would de-link brownfields from 
Superfund funding, and its accompanying restrictions and requirements, 
thereby eliminating the requirement that parties comply with the 
National Contingency Plan to qualify for a grant or loan. But the 
Administration opposes this legislation, and we thus cannot count on 
these legislative changes to improve the program in the short-term.
    That is why this is an oversight hearing--to examine how this 
program operates under current law, and ways it can be improved within 
the existing statutory and regulatory framework. We should all remember 
that EPA created this program, on its own, without statutory 
authorization and without any mandate from Congress. EPA certainly has 
always had the power to modify its Superfund regulations for 
brownfields programs such as this one, if it had chosen to do so. As 
EPA staff recently acknowledged, the Agency must take its own steps to 
streamline the rules and regulations it has chosen to impose on 
grantees under this program, in order to ensure that cleanups do not 
continue to be delayed by inapplicable and unnecessary requirements. It 
is troubling that EPA did not do so prior to showering grantees with 
tens of millions of dollars, virtually of which remains idle due in 
part to this failure.
    Today, the Subcommittee will hear from EPA and representatives of 
two pilot cities--Boston, which received grants in both 1997 and 1999, 
and Stamford, which received only a 1999 grant. We also will hear from 
one State's brownfields manager, a woman with experience in both State 
and Federal brownfields programs. I look forward to their testimony.
    Unfortunately, the Subcommittee will not hear from any other 1997 
pilot since several of them refused our invitations--particularly those 
that have done virtually nothing since being selected as a pilot more 
than two years ago. I must say that, while I can understand their 
reluctance to come before this Subcommittee and be held accountable for 
their lack of progress, I find it astonishing that recipients of 
taxpayer monies would refuse to appear before a Congressional committee 
conducting oversight of their grants.
    Finally, let me just say that I think all of the Members, on both 
sides of the aisle, want to improve this program so that these tens of 
millions of dollars result in real achievements for the American 
people.

    Chairman Bliley. Thank you, Mr. Chairman.
    Earlier this year, I released a report from the General 
Accounting Office on this administration's overall brownfields 
effort. This report found that, while the administration was 
good at handing out hundreds of millions of dollars for various 
programs designed to spur the cleanup and reuse of brownfields, 
the government was not good at tracking whether this money was 
being put to productive use. Even by the EPA's own numbers, the 
rate of progress has been painfully slow, and the Agency 
recently was forced to admit that even those meager numbers 
were probably inflated.
    One of the programs surveyed in the GAO report was the 
program we are here to discuss today, the Brownfields Cleanup 
Revolving Loan Fund. This program, which began in 1997, is one 
of roughly 10 brownfields-related programs that EPA has created 
on its own initiative over the past several years. It is now 
the largest single brownfields program run by the Agency, and 
the largest one that provides funding for actual cleanup of 
contaminated brownfields sites. Unfortunately, it appears that 
this program is suffering from the same flaws that continue to 
impact the administration's overall brownfields effort.
    The goal of this program is simple and worthy of praise. 
The Agency provides funds to local governments, which in turn 
use that money to make loans to private or public entities 
interested in cleaning up brownfields in their communities.
    The problem with this program, however, is that virtually 
none of the roughly $40 million obligated by EPA so far has 
made its way to the people in these communities who are 
actually working to clean up and redevelop these sites.
    There will always be some startup problems in new programs, 
and many of the 1999 pilots just received funding several 
months ago. But none of that explains why not a single 1997 
pilot has been able to successfully make a loan in more than 
2\1/2\ years, and I am concerned that EPA expanded this program 
so dramatically and so quickly, before any of its original 
pilots had successfully made it off the ground.
    I will be interested to hear why the American people should 
be more confident that this new, larger round of pilots, and 
the proposed doubling of pilots for next year, will meet with 
greater success than their predecessors. I also want to hear 
how EPA plans to make sure that this growing pot of money is 
getting into the hands of people who will use it and actually 
get the job done.
    The cleanup and redevelopment of brownfields can provide 
many economic, social and environmental benefits to 
communities. However, when the Federal money given to support 
these efforts sits idle, tied up for years without any 
productive use, more brownfields sites also remain idle, and 
other opportunities for progress are lost.
    I want to thank you, Mr. Chairman, for holding this hearing 
so that we can explore the reasons for the lack of progress in 
this important program. Hopefully, we can make the program work 
better for the thousands of American communities marred by 
brownfields sites.
    I want to thank all of the witnesses for their appearance 
here today, and I look forward to their testimony.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. I, too, would commend 
you for holding this hearing.
    I first want to associate myself with the remarks, both 
your remarks as well as our full committee chairman's remarks, 
and ask unanimous consent that any statement that I might want 
to submit be allowed, any written statement.
    Mr. Upton. Without objection.
    I would note that all members will have the right to submit 
their full statement as part of the record.
    Mr. Bryant. Let me just quickly wind up, because I think we 
are all very interested in hearing from these witnesses and 
having some of these questions that have been raised in the 
opening statements answered. I, too, am very interested in 
hearing the answers to these questions. But I think we have, 
again from the perspective of the EPA, the ability to respond 
to these questions and, also, those witnesses on the second 
panel who are out in the field, so to speak. I really look 
forward to hearing their testimony.
    I yield back the balance of my time.
    Mr. Upton. Thank you, Mr. Bryant.
    Mr. Fields, welcome again to the subcommittee, as they say 
in Ann Arbor, the Big House. As you know, as you have testified 
before, we have a long tradition of taking testimony under 
oath. Do you have any problem with that?
    Mr. Fields. No, sir.
    Mr. Upton. Also, under both committee rules and House 
rules, you are entitled to counsel if you so desire. Do you 
wish to have counsel?
    Mr. Fields. No, sir.
    [Witness sworn.]
    Mr. Upton. You are now under oath; and, as you know the 
rules, your entire testimony will be made a part of the record, 
and if you would so kindly limit your remarks to about 5 
minutes with this little light that is down there and summarize 
it, that would be terrific.
    The time is now yours. Thank you.

TESTIMONY OF HON. TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
   ENVIRONMENTAL PROTECTION AGENCY; ACCOMPANIED BY LINDA L. 
   GARCZYNSKI, DIRECTOR, OUTREACH AND SPECIAL PROJECTS STAFF

    Mr. Fields. Thank you, Mr. Chairman, and members of the 
subcommittee. I am pleased to present this testimony today 
about a very important part of EPA's brownfields agenda, the 
Brownfields Cleanup Revolving Loan Fund Pilot Program.
    Virtually every community in the country, no matter what 
the size, is grappling with the problem of how to clean up 
brownfields. And, the Clinton administration has stepped 
forward. The brownfields assessment pilots have been very 
successful. More than 307 communities have leveraged $1.6 
billion in cleanup and redevelopment dollars, and more than 
5,000 jobs. We want to emulate that success in the Brownfields 
Cleanup Revolving Loan Fund.
    The U.S. Conference of Mayors, in a report last year 
pointed out that the lack of support for cleanup is the No. 1 
impediment to redevelopment. It has been estimated that 
redeveloping brownfields could bring as much as $1 billion to 
nearly $3 billion in tax revenues annually as well as create 
jobs and preserve green space, forests and farmland. In that 
vein, just more than 2 years ago, EPA began the Brownfields 
Cleanup Revolving Loan Fund Program as yet another way to help 
cities and communities to meet brownfields needs across 
America. The Revolving Loan Fund program builds upon the 
success of the assessment pilots by being a second stage 
brownfields pilot program.
    Mr. Chairman, 45 pilots were awarded in 1999, so now we 
have 68 of these pilot programs in place. The first round 
delays in issuing loans have been for several reasons: changes 
in personnel, the newness of the program, the fact that 
assessments takes 2 or 3 years, and getting personnel in place 
to implement this program. All new programs need startup time, 
and the Revolving Loan Fund program is not alone in that 
regard.
    We believe, though, that as people have gained experience 
through the assessment process, they have learned more about 
Superfund, and more about our national contingency plan 
regulations. The market conditions are now ripe. We believe we 
are now at a point where we can begin to look at getting 
borrowers, developers, committed Mayors like Mayor Malloy and 
others together to make deals happen.
    EPA believes we have turned a corner with this very 
important program. We are optimistic that more communities will 
be making loans in the very near future. In fact, as we will 
hear from Mayor Malloy this morning, he has been successful in 
making the first loan. We hope that this experience will be 
instructive for many other pilot projects and will serve to 
demystify the process of making loans under this Revolving Loan 
Fund.
    The Stamford pilot is also instructive because it shows how 
one pilot alone with one loan is going to leverage more than 
$50 million in private sector investment, more than the entire 
amount of dollars we gave out for revolving loans for fiscal 
year 1999.
    We will be doing more to encourage that type of commitment 
in other pilots. We have already heard from several of the 
original pilots, as well as one of the new pilots, that they 
are discussing and thinking about loans. We believe that there 
will be an increase in loans given out in this program during 
fiscal year 2000. To the extent we can, the Agency is making 
every effort to assist the pilot cities, and to demonstrate 
flexibility within the constraints of the existing program.
    The Clinton administration strongly supports the passage of 
brownfields legislation. We believe that legislation like H.R. 
1750, for example, which we have said we support, and which 
would help to make this program work in a more flexible and a 
faster way. In particular, one provision that we have supported 
in H.R. 1750 would modify the requirements under the National 
Contingency Plan regulations under which we conduct our 
Superfund and brownfields programs. It would change the 
requirements of the National Contingency Plan for brownfields 
to the extent these requirements are relevant and appropriate 
to the program. We think this type of provision has 
considerable merit. This provision would remove yet another 
barrier to the redevelopment of distressed properties in cities 
across America.
    We at EPA are confident that the Brownfields Cleanup 
Revolving Loan Fund will be moving forward to make loans for 
brownfields cleanup, like the loan in Stamford, in many other 
pilot communities in the very near future. We are encouraged by 
the focus that Congress has given to this issue and to this 
program, and we remain committed to working with you to remove 
impediments, to make this program more efficient faster. We 
want to get cleanups done and, therefore, redevelopment 
occurring at many more of these brownfields properties. New 
brownfields legislation can help, and we want to work with 
Congress in that regard.
    I thank you for your time. I will be happy to answer any 
questions on the brownfields program you might have.
    Mr. Upton. That was perfect timing. We appreciate--I am 
sure you rehearsed that all night long.
    I will say, too, I very much appreciate you sending up the 
testimony in advance and complying with the committee rules. A 
number of witnesses over the years have not done so, and it 
makes it a lot easier for us to prepare.
    [The prepared statement of Hon. Timothy Fields, Jr. 
follows:]
       Prepared Statement of Hon. Timothy Fields, Jr., Assistant 
   Administrator, Office of Solid Waste and Emergency Response, U.S. 
                    Environmental Protection Agency
                              introduction
    Good morning, Mr. Chairman, and Members of the Subcommittee. I am 
pleased to have this opportunity to appear before you today to discuss 
the Brownfields Economic Redevelopment Initiative and, in particular, 
the Brownfields Cleanup Revolving Loan Fund Pilot program.
             brownfields economic redevelopment initiative
    Today, through the Brownfields Initiative, EPA continues to promote 
the assessment, cleanup, and redevelopment of abandoned and 
contaminated properties across the country that were once used for 
industrial and commercial purposes (``brownfields''). While the full 
extent of the brownfields problem is unknown, the United States General 
Accounting Office (GAO-RCED-95-172, June 1995) estimates that 
approximately 450,000 brownfield sites exist in the United States. 
Virtually every community in the country, no matter what the size, is 
grappling with the challenge of problems associated with recycling 
older, mostly industrial and commercial properties. The presence of 
these properties fuels urban sprawl, luring investment and job 
development farther from city centers and inner suburbs.
    The Administration believes that environmental protection and 
economic progress are inextricably linked, and what is good for the 
environment is also good for the economy. Cleanup of sites is only half 
of the equation. It is best pursued in tandem with redevelopment, to 
maximize community benefit both publicly and privately. The Brownfields 
Initiative exemplifies an effort to bring all parties to the table. The 
Initiative provides a framework which encourages stakeholders to seek 
common ground on a range of challenges--environmental, public health, 
economic, legal and financial, and it is a worthy challenge. The 
Agency's multifaceted brownfields initiative represents a significant 
step forward by the Administration and, according to Renew America, 
represents ``a new paradigm in locally-based environmental protection 
that forges public-private partnerships, promotes innovation, and 
relies on market incentives and private sector actions.''
    To stimulate redevelopment and attract private-sector interest in 
the redevelopment and reuse of brownfields, there continues to be a 
need for government initiatives like the Brownfields program. According 
to the U.S. Conference of Mayors (USCM), our cities, towns and urban 
centers are sitting on hundreds of thousands of acres of brownfields. 
The Conference of Mayors surveyed 200 cities and determined that ``the 
lack of cleanup funds'' for brownfields is ``the most frequently 
identified impediment'' to the cleanup of brownfields. The report, 
Recycling America's Land, (Volume II, April 1999) estimates that 
developing brownfields could bring in almost $1 billion to nearly $3 
billion in tax revenues annually, create nearly 700,000 new jobs, and 
take some of the development pressure off of our farms and forest 
lands.
    EPA's brownfields assessment pilots are making a difference in 
shifting the balance of current incentives away from greenfields and to 
brownfields investment. Increasingly, private investment opportunities 
are being attracted to sites assessed by the pilot program. As the 
Agency has learned, to attract and leverage greater private investment 
to a broader spectrum of sites so that they, too, can become more 
marketable, support from the government beyond providing site 
assessments to fund support for cleanup is needed. In a recent study 
funded by EPA, the Council for Urban and Economic Development (CUED) 
reviewed 107 brownfields projects across the country. The projects 
examined involved both public and private sectors. The report concluded 
that for every $1 the federal, state, and local governments put into 
revitalizing brownfields, $2.48 in private investment is attracted. 
Stamford, Connecticut, while not a part of the CUED study, illustrates 
the report's point. Stamford recently made its first loan in the amount 
of $250,000 from the Brownfields Cleanup Revolving Loan Fund to a 
private developer. This loan will leverage a $30 million investment.
    As part of the Brownfields Initiative, the Brownfields Cleanup 
Revolving Loan Fund pilot program is one aspect of a nationwide effort 
to grapple with the challenges associated with cleaning up abandoned or 
underutilized, and contaminated properties. It is an effort taking 
place in both rural and urban communities.
    Let me briefly describe what we have accomplished in the almost 
five years since the initial Brownfields Action Agenda was announced on 
January 25, 1995.
Brownfields Assessment Demonstration Pilots
    The Brownfields Assessment Pilots have served as an essential and 
important tool in a comprehensive strategy to promote the sustainable 
reuse of brownfields. Pilot activities are directed toward 
environmental response activities preliminary to cleanup, such as site 
assessment, identification, characterization, and site response or 
cleanup planning and design. To date, EPA has selected 307 pilots in 
states, communities and tribes, funded at up to $200,000. These two-
year pilots are intended to generate further interest in Brownfields 
redevelopment across the country. Many different communities are 
participating, ranging from small towns to large cities. In charting 
their own course toward revitalization, we are seeing many positive 
results. The assessment pilot effort, combined with our targeted state 
and EPA property assessment efforts, has resulted in the assessment of 
1,174 brownfields properties. Our assessment pilots have reported the 
related cleanup of 134 properties, and determined that more than 575 
properties do not need additional cleanup. This has led to known 
redevelopment of 51 properties. The assessment pilots have provided 
information that they have leveraged more than $1.6 billion in 
redevelopment funds and have been the catalyst for support for more 
than 5,000 jobs as a result of the EPA program.
    Chosen through a competitive process, these pilots are helping 
communities articulate a reuse strategy that demonstrates model 
opportunities to organize public and private sector support, and 
leverage financing, while actively demonstrating the economic and 
environmental benefits of reclaiming brownfield sites. The Brownfield 
pilots enable recipients to take a unified approach to site assessment, 
environmental cleanup, and redevelopment, an approach that stimulates 
economic activity and the creation of jobs.
    Stakeholders tell the Agency that many Brownfields redevelopment 
activities could not have occurred in the absence of EPA efforts. For 
example:

<bullet> In Chicopee, Massachusetts, an older manufacturing community, 
        EPA funded an assessment on a 3.75 acre site which had become a 
        haven for criminal activity. Combined with funds from the HUD 
        Community Development Block Grant, the city demolished the old 
        building on the property. A subsidiary of CNBC has begun 
        construction of a state-of-the-art digital broadcasting station 
        that is expected to leverage 100 new jobs.
<bullet> In Birmingham, Alabama, efforts are underway to transform a 
        run-down industrial area into a 150-acre industrial park, with 
        75 acres reserved for heavy industry, a 50-acre distribution 
        center, a business park, and a full-scale retail center. Work 
        on the distribution center is already underway, and by the 
        project's completion, more than 2 million square feet of 
        industrial and commercial facilities could be in place. 
        Planners believe that ultimately the area will see the creation 
        of more than 2,000 jobs.
<bullet> In Somerville, Massachusetts, the construction of a $14 
        million assisted living and neighborhood health center by the 
        Visiting Nurses Association is being built as a result of the 
        brownfields assessment grant and a combination of other federal 
        funding support.
    The Brownfields Assessment Demonstration Pilots have helped to lay 
a foundation for revitalizing communities. We speak often about 
involving key stakeholders, but for many communities, the first step is 
often from within, calling for interdepartmental coordination and 
collaboration among such entities as the city's redevelopment and 
environmental, public health, legal, business and finance departments 
and offices. This infrastructure and institutional modeling is critical 
to a sustainable community-based brownfields solution.
Brownfields Cleanup Revolving Loan Fund Pilots
    As EPA worked to implement a comprehensive brownfields strategy, it 
became clear that we needed to build upon our experience with the 
assessment pilots through a ``second stage'' brownfields pilot award. 
The Brownfields Cleanup Revolving Loan Fund (BCRLF) pilots reflect this 
staged approach. To EPA, the previous award of an assessment pilot 
serves not only as one of EPA's possible pilot eligibility factors, but 
it also is a useful indicator of both the experience and the commitment 
a community has made to address its brownfields problems.
    Through capitalization grants from EPA, the BCRLF pilots enable 
communities and coalitions of communities to fund the safe cleanup and 
sustainable reuse of brownfields through revolving loan funds. EPA's 
goal for these pilots is to develop revolving loan fund models in 
communities that can be used to promote coordinated public and private 
partnerships for the cleanup and reuse of brownfields.
    Brownfields are not alike; instead they fall on a continuum. At one 
end are properties for which the market is strong enough to overcome 
environmental or other liabilities. Those sites are the proverbial 
``low hanging fruit,'' ripe for picking by developers and among the 
most easily supported by investors and lenders. Those sites that will 
not draw private redevelopment quite so easily are the very properties 
that we believe will benefit most from the BCRLF. These marginally 
viable properties are often characterized by weaker marketability, 
unknown or potential environmental contamination, and, often by 
location in distressed neighborhoods where property values are low and 
other social problems persist. For the transactions involving these 
properties to succeed, some measure of government intervention usually 
is required.
    In fiscal year 1997, EPA used $10 million of its brownfields budget 
for the award of BCRLF pilots at up to $350,000 each. Twenty-three 
pilots are now in various stages of development. It is true that none 
of these original BCRLF pilots has made a loan to date. I am confident 
that will soon change. Although EPA awards the BCRLF through 
cooperative agreements, the day-to-day operations and activities 
relating to loan applications are the responsibility of the BCRLF 
recipient. Many of the pilots have been delayed not only because of the 
newness of the program itself, but also because of such things as 
personnel turnover. Prior to making a loan, communities must develop 
the infrastructure necessary to ensure that loans will be in compliance 
with the Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA); the National Contingency Plan (NCP); and cross-
cutting Federal authorities. The development of such an infrastructure 
requires a real commitment from pilot communities, as well as 
considerable sophistication and understanding. The importance of such a 
commitment cannot be overlooked in this equation. For some pilots, 
infrastructure development, requiring the establishment of both site 
manager and fund manager roles, has proven to be a difficult task. For 
others, the more difficult task is finding an eligible borrower.
    EPA is working to overcome BCRLF pilot program start-up delays. 
Indeed, the establishment of these initial pilots in October 1997 
preceded the publication of the BCRLF Administrative Manual (May 1998) 
by eight months. The Manual details the appropriate infrastructure to 
sustain, account, and report on loans and cleanup. It is intended to 
assist not only the pilots but also EPA regions in developing 
cooperative agreements and overseeing BCRLF pilots, as well as 
providing program participants with a description of the program 
requirements. In addition, the Agency also published in October 1998, 
model terms and conditions to further aid the understanding of the 
pilots regarding specific requirements of the BCRLF pilot program. 
Without the descriptions and explanations these materials could provide 
to the pilots, many communities were uncertain as to the best way to 
proceed. To further assist pilots, the Agency has planned a separate 
BCRLF Pilot-to-Pilot session to precede the Brownfields '99 Conference, 
December 6-8, in Dallas, Texas. This pilot session will be held on 
December 6th and is designed to provide opportunities for all of the 
BCRLF pilots to learn from one another, interact and network, and raise 
issues for discussion.
    Finally, the Agency has been working on providing supplemental 
support for the BCRLF program in EPA Regions through the establishment 
of an Interagency Agreement with the U.S. Army Corps of Engineers. 
Through this agreement, the EPA will provide budget support for use of 
Corps personnel in each EPA regional office for a twelve-month period.
    Developing a new program is not done in an instant. It is an 
evolutionary process, as we have discovered. Better understanding of 
the program has emerged from this process. We have educated ourselves 
as to the needs of our pilots, and the pilots have educated us as well 
as themselves as to the requirements of the program. We have stretched 
our capacity to the fullest to assure communication and education 
continue. As each piece of the puzzle has fallen into place, we find 
progress being made. A synergy has emerged from this effort that has 
already been evidenced by the quality, and quantity of applications 
received for the award of the 1999 BCRLF pilots. Representing more than 
65 communities as single pilot communities or as coalitions of states 
and communities, forty-five (45) new BCRLF pilots were announced just 
this past May. In ten of the new pilots, states like Massachusetts, 
Illinois, Arizona, and California will assist cities in carrying out a 
variety of activities under the BCRLF. We were extremely pleased to see 
in the applications an increased level of understanding of program 
parameters and needs, as well as a sophistication in infrastructure 
planning. In addition, as a result of the dialogue with the first round 
of pilots, the Agency has determined that recipients of the most recent 
pilots would benefit from an increase in capitalization grants to 
$500,000 per community.
    The period following the announcement of this latest round of BCRLF 
pilots has been a busy one for both EPA regions and the new pilots. 
Over the last several months, pilots developed formal cooperative 
agreement application packages. The information in the BCRLF pilot 
proposals formed the basis for the cooperative agreement application. 
However, the cooperative agreement application requires, in most cases, 
more detailed information, including standard budget forms and a formal 
workplan. The 45 BCRLF pilot cooperative agreement negotiations were 
just completed on September 30, 1999. Since that time, each pilot is 
proceeding with the establishment of its BCRLF loan program, and 
procedures for day-to-day management of loans. The specific 
responsibilities of the cooperative agreement recipient include both 
environmental and financial management components of operating a loan 
fund. Two key roles must be in place prior to loans being made, the 
BCRLF site manager and the fund manager. In addition, loan documents 
and properties must be identified and processed.
    Since my appearance before the Commerce Subcommittee on Finance and 
Hazardous Materials in August, I am extremely pleased to be able to 
report that the first BCRLF loan has been made. The loan was made on 
the 1st of October in Stamford, Connecticut, and will be used to help 
clean up the Stamford Harbor waterfront property. The $250,000 loan was 
awarded by the City of Stamford to the Southfield Associates, LLC, 
through its managing member, Clearview Investment Management, Inc. 
Clearview Investment, which specializes in the management of waterfront 
redevelopment, will use these funds to restore the harbor area to a 
major economic and recreational resource. Restoration of the harbor 
will also provide a much-needed economic boost to Stamford's two 
lowest-income neighborhoods, Waterside and South End, which are located 
within a State Enterprise Zone. Waterside's population is 71% minority 
residents, with 25% of families living below the poverty level, while 
South End's residents are 80% minority residents, with a 16% poverty 
rate.
    The 15.1 acre project area, which includes both the 2.88 acre 
Northeast Utilities Site and the 12.31 acre Hoffman Fuel Site, will be 
developed into a residential shore front community, called Southfield 
Harbor. The development will include approximately 320 residential 
units and a marina facility with approximately 68 boat slips. The 
development will also include an extensive boardwalk system, which will 
include seating areas, educational signs, and a public fishing pier.
    The BCRLF loan to Stamford is expected to leverage $30 million 
dollars of private development funds. The loan also is expected to 
generate between 100 and 200 construction jobs and 12 full-time, 
permanent administrative jobs.
    Mayor Malloy from the City of Stamford is here today to share his 
perspective on the BCRLF, but let me tell you why I think Stamford was 
successful in making the first BCRLF loan. The Stamford pilot 
represents a very personal commitment by the Mayor to revitalize his 
city. He visited me in Washington several months ago and said at that 
time that it was his intention to make that first loan. I have no doubt 
that Stamford benefitted from the program development, education, 
outreach, and communication EPA has undertaken. The guidance manuals 
and materials are instructive and the efforts in EPA's regional offices 
are commendable, but the Mayor's energy and commitment to the program 
must not be overlooked or underestimated.
    Building on the Stamford pilot experience, several of the new 
pilots have tentatively identified loan recipients, and we therefore 
anticipate that loans will be forthcoming from these pilots in the near 
future.
    Within the next few weeks, the Agency will be publishing in the 
Federal Register a notice that applications are being accepted for a 
third round of BCRLF pilots. Applications will be due in February and 
grant recipients will be announced next Spring. EPA will again be 
awarding pilots to both individual entities and to coalitions. Because 
coalitions of varying numbers and funding needs are anticipated, it is 
somewhat difficult to predict the number of pilots that will be 
awarded. Awards will again be up to $500,000 per eligible entity.
Other Brownfields Initiative Activities
    Job Training Pilots--EPA initiated a third brownfields 
demonstration pilot program in 1998 to help local citizens take 
advantage of new jobs created by assessment and cleanup of brownfields. 
The Job Training and Development Demonstration Pilot program provides 
two-year grants of up to $200,000 to applicants located within or near 
one of the existing assessment pilot communities. Colleges, 
universities, non-profit training centers, and community job training 
organizations, as well as states, Tribes and communities, were eligible 
to apply. Today, 21 job training pilots are in place. The first 11 were 
awarded last year, and the most recent 10 pilot awards were announced 
in May.
    Brownfields Partnerships Build Future Solutions--The Brownfields 
Initiative is clearly about partnerships--with other Federal, State, 
and local agencies, and a diverse array of stakeholders. The EPA has 
undertaken partnership efforts with individual States as well as 
through broad organizational structures like the National Association 
of Development Organizations (NADO), the National Governors Association 
(NGA), the National Association of Local Government Environmental 
Professionals (NALGEP), the Conference on Urban Economic Development 
(CUED) and the U.S. Chamber of Commerce.
    EPA continues to work closely with States and Indian Tribes as key 
partners in the cleanup and redevelopment of contaminated properties. 
The Administration supports the continued growth of the State and 
Tribal regulated and voluntary programs which have greatly expanded the 
number of sites cleaned up to protect human health and the environment. 
To date, 44 States have established voluntary cleanup programs. 
Recognizing the important role that State environmental agencies have 
in encouraging economic redevelopment of brownfields, EPA has provided 
$28.6 million in funding to States and Tribes to support the 
development of these programs since FY 1997. EPA will provide $10 
million, in FY 2000, to encourage the development or enhancement of 
State programs that encourage private parties to voluntarily undertake 
early protective cleanups of less seriously contaminated sites, thus 
accelerating their cleanup and redevelopment. EPA is also pleased with 
the progress it has made in signing MOAs with States. Twelve States 
have now signed MOAs with EPA regarding sites to be cleaned up under 
voluntary cleanup programs. The most recent state to sign an MOA with 
EPA is Oklahoma in Region 6. One additional MOA is now close to 
signature.
    Brownfields National Partnership--Early in the development of EPA's 
Brownfields Initiative, the Agency realized that it needed to find ways 
to further identify, strengthen, and improve commitments to 
brownfields, while continuing efforts toward a comprehensive, 
community-based approach to clean up and redevelop contaminated 
property. We recognized the important contribution of many of our 
Federal partners to brownfields through their participation in the 
Brownfields National Partnership. Through the partnership, Federal 
departments and agencies can offer special technical, financial, and 
other assistance that can be of great benefit to brownfields 
communities. More than 20 national partners are committing resources 
and assistance to brownfields. The Federal Home Loan Bank Board, for 
example, is exploring ways to bring more private investment to 
redeveloping brownfields properties and, along with the U.S. Conference 
of Mayors, has selected 50 cities to participate in a project to 
research opportunities, impediments, and successes by both cities and 
lenders to address brownfields.
    Showcase Communities--The Brownfields Showcase Communities project 
is an outgrowth of those early partnership efforts and now forms an 
important component of the Brownfields Initiative. It represents a 
multi-faceted partnership among federal agencies to demonstrate the 
benefits of coordinated and collaborative activity on brownfields in 16 
Brownfields Showcase Communities. For example, through the Showcase 
Community in Glen Cove, New York, a revitalization plan to convert 
brownfields and Superfund sites into tourist destinations has been 
completed. State, Federal, and local agencies have played a crucial 
role in securing $18 million in grants from various agencies. In 
addition, a prospective purchaser agreement was signed between EPA and 
the Glen Cove Industrial Development Corporation for the Li Tungsten 
and Captain's Cove Superfund sites. Proceeds from selling the property 
will go toward repaying response costs.
    Redevelopment Barriers--Addressing Liability Concerns--The Agency 
also committed to addressing the fear of liability and other barriers 
impeding the cleanup and redevelopment of brownfields. Over the past 
several years, EPA has announced a variety of guidance and initiatives 
that have had a positive impact among Brownfields stakeholders in terms 
of removing uncertainties often associated with brownfields properties. 
The Agency also is pleased to see the inclusion of innocent and 
contiguous landowner defenses and protection for prospective purchasers 
as common elements of most brownfields legislative proposals. We 
believe these liability relief provisions--innocent landowner, 
contiguous landowner and prospective purchaser--will provide a great 
deal of certainty to homeowners, buyers, and developers involved in the 
purchase and sale, and cleanup and redevelopment of brownfields 
properties.
Lessons Learned
    The Brownfields Economic Redevelopment Initiative has achieved much 
initial success. The continuing value of the Brownfields Initiative is 
its evolution and promise for the future. To build upon these 
successful first steps and launch others, we must not lose sight of our 
overall goal to revitalize communities. With the breadth and variety of 
activities and stakeholders converging on the brownfields issue, we 
have tried to establish a framework that articulates a complete and 
comprehensive brownfields program. Brownfields cleanup under the BCRLF 
pilot grant program, in particular, is a tool to help leverage 
opportunity for the revitalization of communities.
    EPA recognizes that more must be done to provide flexibility to the 
brownfields cleanup and redevelopment process. As we hear from many of 
our pilots, and as I am sure Mayor Malloy would echo, compliance with 
the National Contingency Plan regulations when using Superfund Trust 
Fund monies while substantially less complex than those provisions 
applying to the Superfund remedial program, are nonetheless daunting to 
many.
    Brownfield reforms made under CERCLA should be codified, and should 
reaffirm use of the Superfund Trust Fund to address the full range of 
brownfield issues including: technical assistance funding for 
brownfields identification, assessment and reuse planning, cooperative 
agreement funding to capitalize revolving loan funds for brownfields 
cleanup, support for State development of voluntary cleanup programs, 
liability protection for bona fide prospective purchasers, innocent 
landowners of contaminated property and contiguous property owners, 
support for mechanisms for partnering with Federal, State, local and 
tribal governments and other non-governmental entities to address 
brownfields, and support and long-term planning for fostering training 
and workforce development.
                              legislation
    The Clinton Administration strongly supports the passage of 
brownfields legislation and views it as an important step toward 
restoring hope, opportunities, and jobs to local communities and 
neighborhoods that are being held back by the presence of abandoned 
industrial sites. Through three rounds of administrative reforms, the 
Superfund program has made significant progress in cleaning up 
hazardous waste sites, protecting public health and the environment, as 
well as in the assessment and cleanup of brownfields sites.
    In the past, the Administration supported brownfields legislation 
within the framework for comprehensive legislative reforms to the 
Superfund program. In light of the progress being made, the ever 
increasing need to meet and assist communities in their revitalization, 
as well as the apparent bi-partisan, and broad-based public support for 
brownfields reform, the Administration now supports a targeted 
legislative approach which addresses brownfields cleanup and 
redevelopment, and specific liability provisions necessary to support 
brownfields. In addition, EPA strongly supports legislation that would 
reinstate the expired Superfund taxes. These funds are needed for the 
ongoing Superfund cleanup effort and the brownfields program.
    Among the legislative approaches introduced in this session, H.R. 
1750, the ``Community Revitalization and Brownfields Cleanup Act of 
1999,'' was introduced by Representative Towns and is co-sponsored by 
170 Members of Congress. As Administrator Browner stated in her letter 
of May 10, 1999, ``this brownfield redevelopment legislation is an 
important step toward restoring hope, opportunities and jobs to local 
communities and neighborhoods that are being held back by the presence 
of abandoned industrial sites.'' Accordingly, Administrator Browner 
expressed the Clinton Administration's strong support for the approach 
taken in HR 1750, which would promote brownfields cleanup and 
redevelopment by providing grants and loans, and providing appropriate 
liability protection to prospective purchasers, contiguous property 
owners and innocent landowners; and preserves critical safeguards for 
communities by ensuring EPA has authority to protect human health and 
the environment.
    A June 4, 1999, letter from President Clinton to the Honorable 
Deedee Corradini and the Nation's Mayors echoes the sentiments 
expressed in Administrator Browner's letter. Administrator Browner's 
letter notes the broad consensus of Congressional and public support 
enjoyed by brownfields reform proposals, and requests the opportunity 
to continue to work with Representative Towns on appropriate resource 
levels and other refinements to the bill. President Clinton's letter 
likewise remarks that HR 1750 offers the best prospect for broad public 
support, because it focuses on those proposals that reflect substantial 
consensus in Congress and among communities; and confirms his 
commitment to continue to work with Representatives Boehlert and 
Borski, as well as Senator Baucus, to achieve truly bipartisan 
brownfields legislation.
    EPA has identified several provisions of H.R. 1750 that are of 
particular merit. The bill provides $500,000 for brownfields assessment 
grants and $500,000--up to $1 million--for grants for the 
capitalization of revolving loan funds. Unique to the legislation, 
however, are provisions which (1) ensure grant funding support for 
local governments, consortiums, and regional councils; (2) provide 
opportunities to support projects and programs with particular 
significant environmental and economic benefits; (3) make awards to 
states as determined necessary to facilitate receipt of funds by one or 
more local governments and (4) simplify the grant application and 
review procedures conducted by the Agency.
    H.R. 1750 also limits the procedural requirements of the NCP in 
brownfields ``to the extent that those requirements are relevant and 
appropriate to the program . . .'' To that end, the Agency would seek 
to continue to apply those provisions of the NCP that address the need 
for fully protective cleanups in compliance with State and Federal 
regulations. Refinements to the brownfields program, such as the 
provision in H.R. 1750, reflect and express the insights and experience 
we have gained from our brownfields pilots. H.R. 1750 removes yet 
another barrier to the redevelopment of properties in distressed urban 
areas and small towns. Other pending legislation does not address the 
procedural issues of Superfund and the NCP as they relate to 
brownfields. We look forward to working with the Congress to address 
specific provisions and resources issues in this bill.
                               conclusion
    The federal attention directed at brownfields assessment, cleanup, 
and redevelopment over the past five years reflects a growing 
realization that yesterday's eyesore is today's opportunity. For EPA 
and the federal government, it is an opportunity to demonstrate that 
environmental protection can also promote economic development. For 
communities and cities, it is the opportunity to return a wasted asset 
to productivity, job creation and revenue generation. For local 
contractors and developers, brownfields redevelopment is an opportunity 
to expand their work, to clean up sites and to build new facilities. 
For local lenders, it is the opportunity to meet their community 
reinvestment needs, often at much less of a credit risk than they might 
otherwise anticipate. But the biggest opportunity is for the people who 
live with brownfields sites every day. Eyesores are cleaned up. 
Frequently, potential threats to health are substantially reduced, if 
not altogether eliminated The value of property increases. And often 
brownfields redevelopment provides the neighborhood's residents with a 
new sense of hope.
    We are confident that the BCRLF program has caught hold and will be 
moving forward to make more loans for brownfields cleanups in the 
future.
    Finally, EPA is encouraged by the focus that Congress has given to 
the problems engendered by brownfields. We remain committed to working 
with you to generate a broad consensus among a variety of local, state 
and private sector stakeholders on brownfields legislation that can be 
enacted and signed into law.
    Thank you. I would be happy to answer any questions on the 
brownfields program you may have.

    Mr. Upton. What we will do at this point is, as you know, 
is have 5 minutes of questions for each of us here on the 
subcommittee. I guess my time comes first.
    As I look at the number of pilots that were initiated, I 
think what, 24 pilots the first year, this was, in essence, a 
3-year program--24 the first year, 45 the second, and you are 
planning to almost double that again in the third year.
    What has been most troubling to many of us is the fact 
that, despite this program getting out and starting up, that 
now, as we are just started into this third year, only one has 
been funded, the Stamford, Connecticut, project. And we are 
delighted to have the Mayor testify on the second panel. We are 
also delighted, too, that you are able to stay for the second 
panel to answer questions.
    But I noted that, in listening to your testimony, you, 
quote, ``would make every effort to reduce the impediments.'' 
you want to make this more flexible and to make sure that it 
really works. It is probably not a terrific track record that 
only one project has actually been funded as we now are 
beginning the third year.
    As I looked at the testimony from the gentleman from 
Boston, who will be testifying on the second panel, and I quote 
from his testimony on page 4, ``In fact, we have discussed the 
program with developers of two specific sites recently. The 
reality is such that if there are other opportunities, even if 
it is private lending at twice the rate for financing the 
cleanup without incurring CERCLA regulations, the developers, 
more times than not, will take the more expensive route. It 
just isn't worth the hassle.''
    That seems to be the problem with actually getting these 
funded. Would you not agree?
    Mr. Fields. It is one of the issues. Complying with the 
Superfund and National Contingency Plan regulations is one of 
the impediments, that is correct.
    Mr. Upton. But it is my reading of your authority that, in 
fact, that these can be de-linked, that you have the right and 
authority to write the regulations, not us, not Congress, and, 
therefore, you have the power and ability to change the 
regulations that were in place when this program was unveiled. 
Here we are now in the third year, and only 1 percent of the 
money has been obligated. The cities--we are going to hear from 
two cities later on this morning, but as we talked to a number 
of cities around the country that were unwilling to come and 
testify today, it seems to be the problem that they all raise, 
as they indicate, it is just not worth the hassle.
    What concrete steps are you thinking about taking to try 
and reduce some of these regulations that otherwise mar what I 
think would be a pretty good idea, solving something on 
brownfields that we see support on both sides of the aisle for?
    Mr. Fields. We agree with you 100 percent. You have to keep 
in mind, Mr. Chairman, that this program is only 2 years old. 
The first 23 were awarded in September 1997, 2 years ago. For 
the first 2 or 3 years of this program committee were focused 
on assessment. It took 2 or 3 years on the average to get the 
assessment job done. Now pilots are looking at cleanup. And, we 
think there will be a greater focus in many more cities like 
Stamford, Connecticut, on the cleanup process now that many of 
these brownfields properties have been assessed.
    There was also a chilling effect and a legal cloud 
established during 1998, the second year of this program, 
because Congress had appropriation language that said that they 
didn't believe EPA had the legal authority to issue Revolving 
Loan Fund grants. Some of the 23 cities were concerned about 
whether or not Congress was going to continue to support this 
program.
    In spite of that, we have agreed to provide 20 new Corps of 
Engineers personnel to our regions to assist these cities and 
brownfields. We have expanded eligibility coalitions with the 
States so that to help the States can help manage the revolving 
loan funds and service as the site manager for the local 
communities and cities in many of these pilot communities. We 
are providing training for all of our regions on how revolving 
loan funds can work better. We have heard from five or six 
cities, for example, among the 23 original that they intend 
very shortly to begin to issue loans under their Revolving Loan 
Fund. It took time. When the Clean Water Act Revolving Loan 
Fund was initiated in 1988, the first year of that program, 
only three loans were issued.
    It takes some time to get these programs going, and for 
that momentum to begin. We believe that is going to occur. If 
the loan program does not work, we will fix it. But, right now, 
we believe that people are just beginning to focus on the 
cleanup part of this. The first several years of the 
brownfields initiative, which began almost 5 years ago, was 
primarily focused on assessment. We believe pilots will be much 
more focused on the cleanup now that the assessment process has 
been completed.
    Mr. Upton. Weren't these assessments, though, conducted 
before the cities applied and were given the brownfields 
status? Wasn't most of that work done before they were 
selected?
    Mr. Fields. No. The pilots who have the brownfields cleanup 
revolving loan funds are typically cities or communities who 
have an existing brownfields assessment grant. The first 
several years of that effort were devoted to conducting the 
assessments of contaminated properties or brownfields in those 
cities. That job typically takes 2 or 3 years. Now that that 
assessment job is completed, many of these communities, 
including particularly, the first 23, now are beginning to 
focus on cleanup. We are looking at ways we can work together 
with the States to focus on cleanup and issuance of loans to 
private entities who would be involved in cleanup in that 
community.
    The Revolving Loan Fund part of this program has only been 
around for about 2 years, and only funded in fiscal year 1997, 
and again in fiscal year 1999. It was not funded, as you know, 
in fiscal year 1998.
    Mr. Upton. I will come back to you. My red light is on.
    Ms. McCarthy.
    Ms. McCarthy. Thank you very much, Mr. Chairman; and Mr. 
Fields, thank you for coming before us today on this very 
important issue.
    My district of Kansas City has designated a number of 
sites, and we have applied once for help and not received a 
positive response, in part due to the biState nature of the 
Kansas City area and that difficulty, and we will try again. 
But I appreciate your willingness and your remarks today to 
consider changes to the law.
    I wonder if you would reflect with me a little bit on the 
versions that are before this committee, not today but, 
hopefully, soon, House Resolution 2580 and House Resolution 
1750, and give us some thoughts of how you would craft the 
ideal bill as we proceed as a subcommittee to do this in the 
future.
    H.R. 1750, by the way, I am a cosponsor of, and it has a 
grant program that is freestanding. It is not an amendment to 
Superfund, unlike other bills on this subject, and I would like 
your thoughts on that as well as H.R. 1750 does contain 
language which de-links the NCP with the grant program. And, to 
my knowledge, this is unique in all of the bills that we would 
be considering, the only bill to do this. We share, of course, 
some of the same program changes like money from general 
revenues rather than the Superfund with other vehicles.
    But would you, for this subcommittee's sake, give us some 
thoughts on provisions that you would absolutely like to see, 
and also clarify, as the chairman was pursuing with you, what 
you can do on your own so that we don't get in the way of that 
or in some ways undermine those activities which we know need 
to happen?
    Mr. Fields. On the first part of your question, yes, we 
definitely support the types of provisions in H.R. 1750. The 
administration has endorsed that bill, as you know, and it does 
provide the type of flexibility and support for brownfields we 
would want. It de-links the National Contingency Plan from 
brownfields in terms of cleanup. It takes the dollars out of 
general revenues, as you point out. H.R. 1750 has a provision 
which allows the Agency to determine which requirements in the 
National Contingency Plan are not relevant or not appropriate 
for the brownfields program, we don't have to comply with them.
    Those types of elements in H.R. 1750 would really help us 
create a more flexible and better approach to deal with cleanup 
under the Revolving Loan Fund program. And, that type of 
language is not in H.R. 2580 or H.R. 1300, or any of the other 
bills that are being discussed in the House right now.
    H.R. 1750 is definitely the type of legislation that would 
help us achieve what we all want to achieve for the Revolving 
Loan Fund program.
    In terms of things that we are doing to make this program 
work better, we are trying to make sure that it operates under 
the existing flexibility under the National Contingency Plan. 
We are trying to make sure that we prepare a very short 
engineering evaluation/cost analysis, and an action memo. We 
are trying to minimize those types of requirements under 
existing Superfund regulations so that they are palatable and 
flexible for cities like Stamford and Boston and towns in 
Wisconsin that you will hear about later on the next panel.
    We are trying to make sure that we provide support, 
resource support through the Corps of Engineers and through 
State coalitions who are operating the Revolving Loan Fund on 
behalf of communities within their States. We are trying to 
provide training on flexible ways in which people can comply 
with the Revolving Loan Fund provisions. Those are all steps 
EPA has taken to make this process work better.
    We believe that, just like any program that is new, there 
are startup problems, and I am committed that we are going to 
make that Revolving Loan Fund program just as successful as the 
brownfields assessment program has been. But the brownfields 
assessment program has been around for 5 years. This program 
has only been around for 2 years.
    Ms. McCarthy. May I pursue, Mr. Chairman, since the time 
has not expired?
    Mr. Upton. Yes.
    Ms. McCarthy. I am aware--and I am glad you told us that 
the President has endorsed H.R. 1750, and it is my 
understanding that that is the only bill that the 
administration has endorsed.
    Mr. Fields. That is correct. H.R. 1750 is the only bill 
that the administration has endorsed among those that are 
currently being discussed by the Congress.
    Ms. McCarthy. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman.
    Mr. Fields, welcome. Tell me again for the record, what is 
your official relationship with this program, the Revolving 
Loan Fund program?
    Mr. Fields. Yes, sir. I am the Assistant Administrator for 
Solid Waste and Emergency Response, and I am responsible for 
all the waste management and programs for EPA. The brownfields 
cleanup program is one of my responsibilities, it is one of 
seven offices that I have responsibility for at EPA, including 
Superfund, RCRA, hazardous waste management, underground 
storage tanks, et cetera.
    Mr. Bryant. How long have you been operating in this 
capacity with regard to the revolving loan program?
    Mr. Fields. Since its inception, yes, sir.
    Mr. Bryant. One of the concerns I have, and I think it 
perhaps mirrors my chairman's concerns, I understand that there 
are always startup problems, but I don't understand why this 
program was started and apparently some of this money was put 
out without any guidance. In particular, this Revolving Loan 
Fund Administrative Manual, which describes the management 
standards, the recordkeeping and reporting requirements, was 
not put out until May 1998, which was about 8 months after the 
pilots were awarded; and the second document, the Model Terms 
and Conditions, was not issued until October 1998, more than a 
year after the first pilots were awarded.
    What guidance did you expect the people to follow during 
this time? And it would to me and wouldn't it to you have made 
sense not to do the funding until you had guidance out there? 
It just seems like there was a rush out there to get this money 
out. It seemed like you made the situation even more 
complicated and difficult.
    Mr. Fields. In hindsight, Congressman, you are right. I 
would have preferred to have the administrative manual out 
before we began to issue or award the initial 23 Revolving Loan 
Fund grants. We did not have all of our guidance in place for 
the brownfields assessment program when we initially began 
either. It evolved over time.
    We must keep in mind that other Federal agencies do have 
programs like this. The Economic Development Administration 
within the Department of Commerce has operated a similar type 
of program that gives grants, and then they issue loans under 
those grants. So a lot of cities have experience with the 
Economic Development Administration model of implementing 
revolving loan funds for redevelopment activities.
    Mr. Bryant. And that is the guidance you assumed they used 
during this period?
    Mr. Fields. No. We worked with those cities, helping them 
prepare their applications, helping them get revolving loan 
funds established. That was our role. We provided a major 
technical assistance role with communities prior to the 
administrative manual coming out 8 months after the initial 
awards.
    Mr. Bryant. Wasn't the EPA concerned at that time that you 
were tying up $10 million on a program you weren't sure what 
would happen with?
    Mr. Fields. We were not concerned. We felt the money would 
be well spent. It is money that is still available, and it is 
money that has been obligated in grants, but the money is still 
there to issue loans.
    We believe, Mr. Congressman, that the $10 million that was 
given out in September 1997, will be money well spent, and 
there will be multiple millions of dollars in private 
investment that will result from loans issued under those 
programs.
    I know of at least 5 or 6 of those 23 now who are thinking 
about issuing loans, and I believe that those loans will 
leverage many millions of dollars in private sector investment. 
So I think that money will be proven to be well spent.
    Mr. Bryant. Let me ask you about a statement that was 
contained in some correspondence to Representative Oxley back 
in October, really just a couple of weeks ago. You listed 11 
pilots that were not close to making loans. I have the list. 
Since they are not close to making a loan, what does the EPA 
plan to do with those? Is there a provision, a policy to extend 
the 3-year period for these 1997 pilots, or do you plan to 
deobligate the funds for nonperformance? What do you have in 
store for those?
    Mr. Fields. The grants that were awarded in 1997 were 
actually 5-year grants. The money is only being drawn down to 
the extent loans are made.
    We will look, Mr. Congressman, at those cities if they do 
not aggressively move out this year and begin to take action as 
necessary to facilitate issuing loans. We will look at whether 
we deobligate money under some of those pilot projects where no 
activity has occurred as we have communicated to Congressman 
Oxley.
    But, that is something that I am encouraged about. I am 
having a meeting with all 68 of the brownfields Revolving Loan 
Fund pilot cities on December 6 in Dallas where we will be 
talking about how they can get their programs jump-started, how 
they can benefit from the lessons learned from Mayor Malloy in 
Stamford, Connecticut. And, I am hopeful that some of these 
cities like Detroit, like Baltimore, will start moving forward 
and working with developers, issuing loans and getting the job 
done. If they don't do so, we will look at taking the money 
back and reusing it for another purpose. But, I am optimistic 
that, just like the water program and which built on 16 years 
experience it started with three loans, it soon got up to 78 
loans, and then later got up to 236 loans a year. I believe 
that the brownfields revolving loan program, although starting 
slow, will begin to pick up momentum now that we have gotten 
the effort started in Stamford, Connecticut; and I am hopeful 
that these 23 this year will begin to issue loans just like 
Stamford, Connecticut.
    Mr. Bryant. If I might just close with a statement.
    Again, I appreciate very much the fact that you will have 
this meeting, and I am accepting your assurance that at that 
meeting you will build the appropriate fire under these people 
and to let them know that they need to begin moving quickly or 
else they are at risk for losing these obligations in one way 
or the other. I thank you for that commitment.
    Mr. Fields. I thank you, Mr. Congressman, and I assure you 
that is my commitment.
    Mr. Upton. Thank you.
    Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    I apologize, Mr. Fields, for coming late. I have had an 
opportunity to read your testimony. If I cover ground that has 
already been gone over, let me apologize for that.
    Is this a successful program?
    Mr. Fields. The brownfields Revolving Loan Fund program?
    Mr. Burr. Yes, sir.
    Mr. Fields. I would not characterize that portion of the 
program as being successful. I would say that the brownfields 
assessment grant program has been successful with $1.6 billion 
in private investment, and the creation of more than 5,000 
jobs.
    Mr. Burr. Aren't we here talking about the Revolving Loan 
Fund?
    Mr. Fields. Right. I am talking about how I measure 
success. I measure success by what has been achieved under the 
assessment program. I do believe though, Mr. Congressman, as I 
said before, that the revolving loan program will soon 
demonstrate the same type of success as has been demonstrated 
under the assessment program.
    Mr. Burr. Let me assure you, Mr. Fields, my wife and I 
measure success in different ways; and I go home euphoric some 
weeks when I think we have done something good, only to face 
the realities of somebody who judges success in a different 
way, a way that really more of America judges success than we 
have a tendency to in this town.
    How many sites have you cleaned up under the Revolving Loan 
Fund?
    Mr. Fields. We have only issued one loan, which Mayor 
Malloy will soon talk about. No cleanups have been done under 
the Revolving Loan Fund program.
    Mr. Burr. No cleanups.
    Mr. Fields. No cleanups to date under the Revolving Loan 
Fund program.
    Mr. Burr. Why do you think that is? Critique the program 
for me.
    Mr. Fields. Right. I think that there are several reasons 
this program got off to a slow start. There was turnover in 
city personnel. There is the newness of the program, it's only 
2 years old. There are natural startup problems for any new 
program.
    Mr. Burr. Did people come to you and beg you to participate 
in this program or did you go to people and beg them to 
participate in this program?
    Mr. Fields. Once we awarded those assessment pilots 
beginning in 1995, the Mayors came to us and said the No. 1 
priority need they had, was for brownfields, cleanup dollars to 
help facilitate cleanup of these properties that are being 
assessed. So the Mayors came to us.
    We then tried to provide a vehicle, which turned out to be 
the Brownfields Cleanup Revolving Loan Fund, and that is the 
program we got started. I will be quite honest with you. There 
was a legal cloud established by the appropriations language 
that we got from the Hill. Congress passed appropriation 
language in 1998 which said they didn't believe we had the 
legal authority to issue those grants--those 23 grants to 
establish revolving loan funds. Many of those 23 cities came 
back to us and said, we are concerned about the legal 
authority. Fortunately, Congress, in 1999, in the appropriation 
language, endorsed these brownfields revolving loan funds and 
encouraged EPA to award more of those grants, which we did do.
    Mr. Burr. And now we are to the point where we are 
assessing success, aren't we? Or is it too early?
    Mr. Fields. I think for the Brownfields Cleanup Revolving 
Loan Fund, it is too early to assess success.
    Mr. Burr. When do we do that?
    Mr. Fields. I would say a year or 2 from now. We did not 
achieve early success with the assessment program either. We 
didn't have more than 5,000 jobs. We didn't have $1.6 billion 
in private investment. That is something that just began to 
occur in the last year.
    Mr. Burr. Shouldn't we wait to see the success of those 
before we expand?
    Mr. Fields. No.
    Mr. Burr. The Mayors understandably want brownfields 
cleaned up.
    Mr. Fields. Yes.
    Mr. Burr. I think I would get a nod if I knew which ones 
they were in the room. They want to clean brownfields up and 
pursue development.
    Mr. Fields. Yes.
    Mr. Burr. Do they want to do it under Superfund 
regulations, or would they rather do it some other way? Because 
the way that you fund the Revolving Loan Fund, they have to 
fulfill all the requirements of Superfund, don't they?
    Mr. Fields. They obviously have to comply with the 
Superfund law.
    Mr. Burr. But they are not required to unless they use the 
Revolving Loan Fund, am I correct?
    Mr. Fields. Yes, when they use our Revolving Loan Fund 
functions under the removal authorities of the Superfund 
statute. We have tried to make those procedures very flexible 
in terms of how we implement them. We don't require what we do 
for a regular Superfund site.
    Mr. Burr. Have you ever heard a witness come in here and 
tell us we were flexible under Superfund regulations? I don't 
think you have, and I don't think I have, so we can quit 
fooling ourselves on that.
    Mr. Chairman, just 1 additional minute, if I could.
    What timeframe do you need to come to this committee and 
say, here is the proof, this works? Is it 6 months? Is it 12 
months? Is it 2 years? What is it?
    Mr. Fields. Mr. Congressman, I believe it is going to be 
about 2 years. To be very honest and frank with this committee, 
it will be about 2 years.
    I expect that we will see several more cities like 
Stamford, Connecticut, issue loans this year. And we know Las 
Vegas, Trenton, and Sacramento, are cities out there now who 
will be issuing loans. But I don't think we will see the big 
payoff until 2 years from now, just like we did with the 
brownfields assessment program. Two years from now, we will be 
able to see the jobs, the cleanups, the redevelopment that will 
be really occurring from this Revolving Loan Fund program.
    Mr. Burr. Is that how you would define success, cleaned-up 
sites, development, jobs? Anything short of that?
    Mr. Fields. Those are tangible measures of success.
    Mr. Burr. Do we have to have something tangible for----
    Mr. Fields. No, I don't think that is the only measure. I 
think there is great success when people, like this committee, 
are focused on the topic of brownfields, and are taking every 
step possible to try to find ways to assess, clean up and 
develop these properties. I think the focus of Mayors, the 
focus of the Federal Government, the focus of State government 
on this issue, is going to pay dividends.
    The measures I gave you just now were some of the 
quantitative measures of success. I think there is great 
success when people are working together to try to resolve 
these issues, looking at how we can work together to issue a 
loan and how we can resolve the impediments in these program. 
Those are all measures of success. But what I was giving to you 
were quantifiable dollars and jobs as measures.
    Mr. Burr. Coming out of the business world, I would assure 
you that those do spell success for me. And I think that from 
the standpoint of the oversight responsibility that we have, 
one of the jobs is to make sure that, in fact, by design of 
your program, those who underperform or lack to perform, that 
rather than sit and say, we have done our job, we have supplied 
somebody a revolving loan, if they don't use it, so be it.
    Now, it is also important for us to look further into it 
and see how long did it take you to approve their plan. There 
are a number of steps that require participation from you after 
the commitment to be a partner. Unfortunately, one-half of the 
partnership can't move without your okay.
    It is my understanding you are going to stay around and 
allow us to ask some additional questions after the next panel.
    Mr. Fields. Yes, sir.
    Mr. Burr. With that, I will await anxiously.
    Mr. Upton. Your time has long, long expired.
    We are going to have a second round. I know that a number 
of us have additional questions, and we will start that second 
round now.
    I have to say, from my own district and the knowledge that 
I have, I am a very strong supporter of Superfund reform, 
brownfields. I have talked with a number of Mayors even 
yesterday and with some conversation about this as well. I have 
talked to sponsors of all of the different bills that we have 
had in the House as well--Mr. Boehlert, obviously Mr. Bliley, 
Mr. Oxley.
    It is my understanding that the bill that we passed in 
committee 2 weeks ago here, in this committee, the Commerce 
Committee, that we de-link completely the brownfields grant 
program from the Superfund trust fund. And as I look at the 
testimony and anticipate questions and thoughts by my 
colleagues and the folks that are testifying on Panel II, that 
is their big concern. That is why they think that this program 
is not working to the full utilization that it could, because 
of the regulatory burden that EPA is imposing with this 
program. When you talk about flexibility, we will see with 
questions to them how flexible they think EPA has been.
    But our legislation that we passed here and is now waiting 
for the full debate on the House floor does take that firewall 
out completely, it de-links the two, which would empower the 
EPA to deregulate this entire program so that we can see more 
success. Is that not your understanding?
    Mr. Fields. That is not our understanding, Mr. Congressman. 
We have not read H.R. 1300 that way. The only bill we see that 
de-links Superfund requirements for brownfields is H.R. 1750. 
You are talking about H.R. 1300, I am sure, right? H.R. 2580, 
that bill does not--we don't read H.R. 2580 to de-link the 
Superfund response requirements from brownfields. We would be 
happy to look at that again, but that is not the way we read 
it. The only bill that has the provision in it that we are 
referring to that creates that de-linkage is H.R. 1750.
    Mr. Upton. Well, we will provide you our analysis of H.R. 
2580 showing that, in our view, it does de-link it, and we will 
look forward to your response on that.
    Mr. Fields. I will be happy to respond.
    Mr. Upton. In your response last month to Congressman 
Oxley, and we have a copy of this letter here and we will put 
it into the record as well, you listed 11 pilots that were not 
close to making loans.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1041.001
    
    [GRAPHIC] [TIFF OMITTED] T1041.002
    
    [GRAPHIC] [TIFF OMITTED] T1041.003
    
    [GRAPHIC] [TIFF OMITTED] T1041.004
    
    [GRAPHIC] [TIFF OMITTED] T1041.005
    
    [GRAPHIC] [TIFF OMITTED] T1041.006
    
    [GRAPHIC] [TIFF OMITTED] T1041.007
    
    [GRAPHIC] [TIFF OMITTED] T1041.008
    
    [GRAPHIC] [TIFF OMITTED] T1041.009
    
    [GRAPHIC] [TIFF OMITTED] T1041.010
    
    [GRAPHIC] [TIFF OMITTED] T1041.011
    
    [GRAPHIC] [TIFF OMITTED] T1041.012
    
    [GRAPHIC] [TIFF OMITTED] T1041.013
    
    [GRAPHIC] [TIFF OMITTED] T1041.014
    
    [GRAPHIC] [TIFF OMITTED] T1041.015
    
    [GRAPHIC] [TIFF OMITTED] T1041.016
    
    [GRAPHIC] [TIFF OMITTED] T1041.017
    
    [GRAPHIC] [TIFF OMITTED] T1041.018
    
    Mr. Upton. The cleanup Revolving Loan Fund administrative 
manual at page VIII-3 clearly states, and I quote. It says, 
``Each cooperative agreement has 3 years from the cooperative 
agreement start date,'' so that is September, 1997, for most of 
the 1997 pilots, ``to obligate all funds awarded. The schedule 
of obligation should be no less than 50 percent of the amount 
awarded with 18 months, 80 percent within 2 years, and 100 
percent within 3 years.''
    Will any of the 11 pilots that you listed make a loan 
before the 3-years lapse? In other words, where are we with 
those 1997 pilots? I guess the terms of the agreement were that 
they were supposed to do this.
    Mr. Fields. Right. By September of 2000.
    Mr. Upton. Two thousand.
    Mr. Fields. That is why we are going to have this meeting 
on December 6 that I talked about. I am not aware of any on 
that list that are issuing loans right now. There are others 
among the 23, as I mentioned earlier, like Sacramento, Trenton, 
Birmingham, Louisville, and Boston, that are thinking about 
loans. But, regarding the ones you list there and the ones that 
I provided my written response on, I am not aware of their 
consideration of loans.
    We will try to as I mentioned to Congressman Bryant 
earlier, we will try to light a fire under those that are not 
currently negotiating or discussing loans and try to see what 
we can do to get others to issue loans. If they don't do so, we 
will have to consider deobligating funds, as I said earlier.
    Mr. Upton. Okay.
    Ms. DeGette, I will yield to you.
    Ms. DeGette. Thank you, Mr. Chairman.
    To follow up on one issue that was just being discussed, I 
thought I heard the chairman saying that H.R. 2580 was de-
linked, but I guess I would like you to comment on how that 
could happen if, in fact, it is an amendment to the Superfund 
statute.
    Mr. Fields. Well, as I shared with the chairman, we don't 
read H.R. 2580 as de-linking the requirements from Superfund 
for brownfields cleanup.
    Ms. DeGette. And why is that, Mr. Fields? I know you said 
that.
    Mr. Fields. The way we read H.R. 2580, it would require 
that the response provisions of the Superfund statute and the 
National Contingency Plan be complied with in conducting 
brownfields cleanups. The only bill we have seen that has 
specific language which says that the cleanup provisions of the 
National Contingency Plan could be modified would be H.R. 1750. 
It is the only legislative vehicle we have seen that has that 
type of language. We are willing to look at H.R. 2580, but we 
don't read it to have that de-linkage.
    Ms. DeGette. And you may have said this before I got here, 
and I apologize. I had another meeting, and this hearing was 
moved to 9:30, too late for me to change this other meeting. 
But why is it important that these concepts be de-linked?
    Mr. Fields. You will hear more of this from the next panel. 
We think it is important to create flexibility. Right now, the 
cities that issue loans have to prepare an engineering 
evaluation and cost analysis. They have to prepare an action 
memo. They have to have a governmental employee to serve as the 
site manager. We believe some of those requirements could be 
changed by statute.
    The language in H.R. 1750 says that you don't have to 
comply with those requirements if they are not necessary to 
doing brownfields cleanup. We believe that language in H.R. 
1750 is what we need here, and that would allow Mayor Malloy 
and others to do things in a much more flexible way. They don't 
have to prepare a decision document. They don't have to do an 
engineering evaluation cost analysis. Those requirement could 
be eliminated with the language that is in H.R. 1750.
    Ms. DeGette. Right, okay.
    Now, I think you pointed out, at least in your written 
testimony, that some problems exist right now with the 
Revolving Loan Fund because it is still in its infancy; and, in 
fact, the majority in this Congress has prohibited the EPA from 
making any grants in fiscal year 1998, which was only the 
second year of the program. Of course, funding still remains 
tenuous.
    I guess my question to you would be, has the uncertainty of 
funding and the history in the last couple of Congresses 
inhibited the success of the revolving loan funds? In other 
words, do you think there is a chilling effect on cities to 
move forward under this program because they are not sure it 
will still be around when the cleanup time comes?
    Mr. Fields. That is a good question, Congresswoman DeGette. 
There was definitely a chilling effect on the initial 23. When 
the 23 were awarded in September 1997 and then Congress in the 
fiscal year 1998 appropriations said we do not believe the 
legal authority is there, I heard from several cities and 
several Mayors that they were concerned about whether they 
would be able to continue the Revolving Loan Fund under the 
grants we had answered. When Congress in 1999 came back and 
said we endorse and support the revolving loan funds being 
awarded, that removed some of that legal cloud.
    But during fiscal year 1998, that whole year, there was a 
legal cloud created because of the appropriation language that 
came from Congress in the budget about the legality of awarding 
Revolving Loan Fund grants to municipalities. It definitely had 
an effect. I believe it is one of the factors, not the only 
one, that has caused some slowness in the initiation of the 
Revolving Loan Fund program.
    Ms. DeGette. Okay. I am wondering if, based on that cloudy, 
as you said, experience, you can let us know what you think the 
prognosis for success of this program is and what you think the 
future holds.
    Mr. Fields. I believe that the prognosis for the Revolving 
Loan Fund is very good. I have said it for several reasons. The 
success we have had in the assessment program, which has been 
around for almost 5 years now, in creating jobs and leveraging 
$1.6 billion in investment is one reason. I have heard from 6 
or 7 cities now, in addition to the great effort that is led by 
Mayor Malloy in Stamford, that intend to issue loans in the 
very near future. And, third, this program has now reached a 
stage where the 2- or 3-year phase of assessment is done, the 
Mayors and community leaders are now beginning to focus on 
cleanup. Finally, the legal cloud has been lifted by the fiscal 
year 1999 appropriation language which clearly said Congress 
supports and gives us the mandate to do this job of 
implementing cleanup through the revolving loan funds. That is 
what gives me an optimistic prognosis that the future is good 
and that we will see a great expansion in the number of loans 
issued under this program in the very near future.
    Ms. DeGette. Thank you.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    I would just like to make, before I yield to Mr. Bryant, 
three quick points with regard to our interpretation of H.R. 
2580.
    One, there is no requirement in the bill to tie the program 
to the National Contingency Plan. It is our belief that we de-
link the program from the National Contingency Plan by the use 
of general revenues rather than Superfund dollars. In that 
provision, the bill says there is authorized to be appropriated 
and carried out in this section such sums as may be necessary. 
Such funds shall remain available until expended.
    It is my understanding that H.R. 1750, in fact, allows EPA 
to require the use of the National Contingency Plan when it 
wants to. So in terms of a clear reading of de-linking, H.R. 
2580 goes much further than does H.R. 1750.
    Mr. Fields. I will go back, Mr. Chairman.
    Mr. Upton. I will be anxious to get your formal response 
from your legal counsel in terms of whether we are right or 
not. But as we talked to the authors of the bill and to our 
counsel, it is our belief that there is a greater distinction 
of de-linking in this bill than in H.R. 1750. We will be 
anxious to hear back from you.
    Mr. Fields. We will respond in writing. We will go back and 
read that again. That is not how we had read it, but we will go 
back and look at it and give you some written comments on that 
point. We see a clear de-linkage in H.R. 1750. We will go back 
and look at H.R. 2580 again and give you our written response 
as to whether or not we think a clear de-linking from the 
Superfund response requirements is provided in that bill.
    Mr. Upton. You may be right on your first point that you go 
toward that, but I think our bill goes further.
    I yield to Mr. Bryant.
    Mr. Bryant. Mr. Fields, thank you.
    Would you clarify in my mind a statement you made about 
there being a 5-year commitment involved here? Because when our 
chairman questioned you before in follow-up to what we were 
talking about, these 11 cities, he referenced the 
administrative manual, Roman numeral 8-3, which states that 
each cooperative agreement recipient has 3 years from the 
cooperative agreement start date, and it goes on and talked 
about that.
    Am I talking apples to oranges here? Is it 3 years or 5 
years?
    Mr. Fields. No, it is a 5-year grant that we issue. We 
award the grant for 5 years.
    What is reflected in the administrative manual that you are 
reading from is that they have 3 years to draw down money. We 
give a $500,000 grant under the cooperative agreement to a city 
or a municipality or a State. They have 3 years under our 
guidance to begin to draw funds down out of that grant. That is 
the commitment that is made in the administrative manual. We 
want to provide some impetus, as the chairman said, to 
encourage people to try to move out quickly and begin to issue 
loans. But the actual award is a 5-year grant.
    Mr. Bryant. Okay. So for those 11 cities that haven't 
really done anything and are not likely to do anything, unless 
you can again get them excited during December----
    Mr. Fields. They will get excited, I assure you. This is a 
high priority for us, and we are not going to just let money 
sit there if communities and cities are not taking action to 
move forward to implement the Revolving Loan Fund grant we have 
given them. We are not going to wait 3 years. We want to start 
action right away to encourage people to take action as 
necessary to begin to issue loans. Otherwise, we need to be 
taking the money back, as you said earlier.
    Mr. Bryant. To sort of change direction here, in some 
written testimony, Ms. Foss from the Wisconsin Department of 
Natural Resources advocates letting the Revolving Loan Fund 
participants conduct their cleanup in accordance with the 
respective State's own voluntary cleanup regulations instead of 
the National Contingency Plan. Would the EPA seriously consider 
such a change? And if not, why not?
    Mr. Fields. We cannot make that change now under the 
current statute. Under the Superfund and the regulations 
thereof, the National Contingency Plan, these brownfields 
cleanup actions are done as non-time-critical removals. We 
don't have the flexibility now to deviate and say that we will 
allow these cleanups for brownfields to be done under a State-
voluntary cleanup program that ignores the NCP when we give 
them dollars, Federal dollars to do that work.
    I support what Ms. Foss is saying. I support the fact that 
we want a more flexible construct for these cleanups. We don't 
think that we should do these brownfields cleanups the same way 
we do the Superfund or national priorities list sites.
    So, I support what Ms. Foss is saying. We need a more 
flexible cleanup approach, and that is why we support 
legislation that would allow us to exclude or eliminate certain 
parts of the National Contingency Plan requirements from 
brownfields cleanups. We don't think you should have to prepare 
an action memorandum. You should not have to prepare an 
engineering evaluation and cost analysis for brownfields 
cleanups.
    We support those things being eliminated. But under the 
current statute, the way we read it, we don't have a choice but 
to at least require some modified version of those types of 
elements.
    Mr. Bryant. All right. Mr. Fields, how do we get from here 
to there on those issues? Is it our job as Congress to give you 
that flexibility, or is it your job to change the regulations, 
or is it your job to come to us to ask for that? That is common 
sense, I agree with you. How do we do that?
    Mr. Fields. We have supported some legislation that has not 
been voted out of committee. H.R. 1750 has some language that 
would create that flexibility. It says very clearly that those 
parts of the National Contingency Plan that are not relevant do 
not need to be complied with for brownfields cleanups. That is 
the type of legislative provision that we would support, and 
that is how Congress could help us legislatively.
    In the meantime, on the administrative front, I am trying 
to do things with the policy and guidance under the current law 
to provide cities and States more flexibility to be able to do 
this in a more flexible way.
    Mr. Bryant. So specifically on those areas you have 
enumerated that there could be more flexibility, you are 
assuring me that only we have the authority as Congress to 
change that, and these are not regulations that belong to EPA 
that EPA can in and of themselves change? Those items you 
mentioned?
    Mr. Fields. No, no. Let me be very specific. Your question 
was, how can Congress help us? Well, you can pass some 
legislation that would allow changes to be made in the law.
    Mr. Bryant. On those you enumerated previously, can in fact 
EPA change its own regulations?
    Mr. Fields. EPA could change its regulations. We are 
exploring that option. We would hope that Congress would pass 
legislation. We think that would be a lot faster. If Congress 
does not pass legislation, we will have to examine making 
changes to the National Contingency Plan regulations to 
eliminate some of those requirements that currently apply to 
brownfields cleanups. That process is likely to take at least 2 
years. But, if legislation is not enacted in an expeditious 
fashion, the Agency will have to consider regulatory 
modifications to effectuate those types of changes.
    Mr. Bryant. So you say regulation changes would take longer 
than legislation?
    Mr. Fields. Well, I think Congress could pass new 
legislation. I know it has been 6 years, but Congress can pass 
legislation.
    Mr. Bryant. I have been up here 5 years, and I know better 
than that.
    Mr. Fields. To do it by regulation, we estimate will take 
about 2 years.
    Mr. Upton. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman.
    Mr. Fields, I very much appreciate your last remarks, 
because I too think that taking up H.R. 1750, which has such 
broad-ranging, bipartisan support, and the administration's 
support would be the way to go. The other attempts that are 
being made are slower and more tenuous, particularly when we 
get into Superfund reform. So I hope your wishes are carried 
out, and I support them.
    In anticipation of the second panel, those of us who have 
read the testimony from the witnesses, in particular Stamford, 
Connecticut, I think we are going to be very pleased with the 
progress being made there. They loaned money almost 
immediately, as you know, and I wonder if you would just share 
with the committee why you think they were so successful and 
whether or not other cities will learn from this very positive 
experience.
    I am not sure that everyone on the committee is aware that 
the money is not transmitted to the city. I heard concerns by 
members that--what about this money that is sitting around, 
but, rather, it is a letter of credit that is given to the 
city.
    Mr. Fields. Right.
    Ms. McCarthy. And the letter or the grant expires after 5 
years, so the money is not forever lost if the city doesn't use 
it immediately, and I think that is an important point to make. 
And I wonder if you would just reflect on the success of 
Stamford and what we might expect in the future, because I 
think there is a very positive story going on there.
    Mr. Fields. I can't tell the story like Mayor Malloy is 
going to tell the story in a moment, but Stamford has been a 
great success. When you asked me why I believe it has been a 
great success, I think it is because of Mayor Malloy 
personally; having a Mayor who is committed, who is dynamic, 
and who is very concerned about brownfields. Where 
redevelopment cleanup issues in his city are a critical 
element, having a developer who is ready, willing and able to 
participate in the program with him like Seth Weinstein, the 
chairman of Clearview Investment Management, Incorporated, and 
having property that is very viable and that has great 
redevelopment potential is also major factors.
    I hope that we can use that effort in Stamford and the 
property redevelopment that will be occurring through the loan 
as a great springboard for many more cities. I hope more cities 
will use that example to look at how they can issue loans and 
leverage millions of dollars in private sector investment in 
their communities as well.
    I think Stamford is a great example. I think it will help 
break the logjam of getting more revolving loan funds fully 
implemented and more loans being issued. When we look back on 
the history of this program and we begin to measure success, we 
may see Stamford, Connecticut, and the work of Mayor Malloy as 
what really got this program going.
    Ms. McCarthy. I thank you very much.
    I will await the Mayor's testimony.
    Thank you, Mr. Chairman.
    Mr. Burr [presiding]. The gentlewoman's time has expired.
    The Chair would recognize himself, though he did say he 
would wait until the next panel. You have stimulated some 
additional questions in my mind.
    Mr. Fields. Sure.
    Mr. Burr. Mr. Fields, how many brownfields sites are there 
in the United States?
    Mr. Fields. We use the estimate of the General Accounting 
Office. They estimate that there are more than 450,000 
brownfields sites across America. We have seen estimates as 
large as 600,000, but somewhere in that ballpark, 450,000 to 
600,000 brownfields sites exist across America.
    Mr. Burr. And we have only cleaned up one of them?
    Mr. Fields. No. We have only made one loan under the 
Revolving Loan Fund. Many more brownfields have been cleaned 
up.
    Mr. Burr. There were brownfields that were cleaned up 
without the use of the Revolving Loan Fund?
    Mr. Fields. Yes, sir.
    Mr. Burr. How were those done?
    Mr. Fields. They were done through private sector 
investment and other public sector investment.
    As I indicated, the brownfields assessment program has been 
around for more than 4 years now. It has leveraged $1.6 billion 
in private sector investment for cleanup and redevelopment. The 
private sector is coming forward. For example, $50 million has 
been leveraged cleanup in Dallas, Texas, and throughout 
America. The private sector has come forward, and put up 
cleanup dollars to get properties developed and some of those 
properties have been assessed through the EPA brownfields 
grants.
    Mr. Burr. They have been successful?
    Mr. Fields. Yes. But there are many other properties that 
don't have the private sector coming forward, and that is what 
the Brownfields Cleanup Revolving Loan Fund program is designed 
for. There are other properties that you need a public sector 
seed to be planted to help facilitate cleanup. We think that is 
what the Revolving Loan Fund program is designed to do.
    Mr. Burr. You said that one of the reasons that we might be 
slow at experiencing success was that actions of Congress had a 
chilling effect on these participants.
    Mr. Fields. That is one of the 5 or 6 factors, yes.
    Mr. Burr. But isn't the truth that those 23 original 
participants receives their grants? They are not in line for 
any additional grants? So it is not a question of whether they 
were going to be approved or get their money, they had already 
been approved and had their letter of credit. How could our 
actions have a chilling effect on those 23?
    Mr. Fields. Well, I assure you, Mr. Congressman, it did 
initially. It does not now because in fiscal year 1999 Congress 
changed their position.
    Mr. Burr. Why would they be concerned with what we did if 
they had their letter of credit, they had their approval?
    Mr. Fields. They had their letter of credit. They were 
concerned about whether or not this program was going to be 
abolished in fiscal year 1998 when Congress said we don't think 
the EPA has the legal authority to do this, and they thought 
their money would be deobligated.
    Mr. Burr. That seems like that would have stimulated them 
to move quicker rather than to delay in fear that we would 
revoke it.
    Mr. Fields. My staff tells me, for example, that when the 
fiscal year 1998 appropriation language came out, several 
cities indicated that they feared they would be required to 
send their money back to EPA because they were concerned about 
the legality of even being able to implement this program.
    Mr. Burr. Share with us or your staff share with us which 
cities those were, would you, please?
    Mr. Fields. I don't know the names.
    This is Linda Garczynski, who works on my staff.
    Mr. Burr. And if you would, you alluded to earlier that you 
said several Mayors expressed concern. I would like to know 
which Mayors those were.
    Ms. Garczynski. We heard from the city of Dallas staff. We 
also heard from the Assistant to the Mayor of the city of 
Detroit. We heard from the city of Bridgeport staff. We heard 
from a number of the cities.
    Mr. Burr. Share the rest of them with us, if you would.
    Ms. Garczynski. I can't remember them all by heart, but we 
had a lot of telephone calls.
    Mr. Burr. Would you be kind enough to submit that list to 
the committee in writing?
    Ms. Garczynski. Yes.
    Mr. Fields. We would be happy to do that.
    Mr. Burr. Let me ask you, Mr. Fields, the EPA Inspector 
General issued a report in March, 1998--and I would ask 
unanimous consent to enter that report into the record. Without 
objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1041.019
    
    [GRAPHIC] [TIFF OMITTED] T1041.020
    
    [GRAPHIC] [TIFF OMITTED] T1041.021
    
    [GRAPHIC] [TIFF OMITTED] T1041.022
    
    [GRAPHIC] [TIFF OMITTED] T1041.023
    
    [GRAPHIC] [TIFF OMITTED] T1041.024
    
    [GRAPHIC] [TIFF OMITTED] T1041.025
    
    [GRAPHIC] [TIFF OMITTED] T1041.026
    
    [GRAPHIC] [TIFF OMITTED] T1041.027
    
    [GRAPHIC] [TIFF OMITTED] T1041.028
    
    [GRAPHIC] [TIFF OMITTED] T1041.029
    
    [GRAPHIC] [TIFF OMITTED] T1041.030
    
    [GRAPHIC] [TIFF OMITTED] T1041.031
    
    [GRAPHIC] [TIFF OMITTED] T1041.032
    
    [GRAPHIC] [TIFF OMITTED] T1041.033
    
    [GRAPHIC] [TIFF OMITTED] T1041.034
    
    [GRAPHIC] [TIFF OMITTED] T1041.035
    
    [GRAPHIC] [TIFF OMITTED] T1041.036
    
    [GRAPHIC] [TIFF OMITTED] T1041.037
    
    [GRAPHIC] [TIFF OMITTED] T1041.038
    
    [GRAPHIC] [TIFF OMITTED] T1041.039
    
    [GRAPHIC] [TIFF OMITTED] T1041.040
    
    [GRAPHIC] [TIFF OMITTED] T1041.041
    
    [GRAPHIC] [TIFF OMITTED] T1041.042
    
    [GRAPHIC] [TIFF OMITTED] T1041.043
    
    [GRAPHIC] [TIFF OMITTED] T1041.044
    
    [GRAPHIC] [TIFF OMITTED] T1041.045
    
    [GRAPHIC] [TIFF OMITTED] T1041.046
    
    [GRAPHIC] [TIFF OMITTED] T1041.047
    
    [GRAPHIC] [TIFF OMITTED] T1041.048
    
    [GRAPHIC] [TIFF OMITTED] T1041.049
    
    [GRAPHIC] [TIFF OMITTED] T1041.050
    
    [GRAPHIC] [TIFF OMITTED] T1041.051
    
    [GRAPHIC] [TIFF OMITTED] T1041.052
    
    Mr. Burr. They reviewed several of the EPA brownfields 
initiatives. They interviewed several of the pilot programs for 
the report. And the report basically stated that several--that 
city representatives told them that they did not want to get 
involved in the pilot program. In a few instances, the IG said 
the EPA had to encourage cities to apply for the pilots.
    Now, I know I talked about did you encourage earlier; and 
you said, no, you didn't. And I know that on April 20, 1999, 
the chairman of the full committee, Mr. Bliley, sent a letter 
to the EPA, which I would also ask unanimous consent to enter 
into the record. That is the EPA response.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1041.053
    
    [GRAPHIC] [TIFF OMITTED] T1041.054
    
    [GRAPHIC] [TIFF OMITTED] T1041.055
    
    [GRAPHIC] [TIFF OMITTED] T1041.056
    
    [GRAPHIC] [TIFF OMITTED] T1041.057
    
    [GRAPHIC] [TIFF OMITTED] T1041.058
    
    [GRAPHIC] [TIFF OMITTED] T1041.059
    
    [GRAPHIC] [TIFF OMITTED] T1041.060
    
    [GRAPHIC] [TIFF OMITTED] T1041.061
    
    [GRAPHIC] [TIFF OMITTED] T1041.062
    
    [GRAPHIC] [TIFF OMITTED] T1041.063
    
    [GRAPHIC] [TIFF OMITTED] T1041.064
    
    [GRAPHIC] [TIFF OMITTED] T1041.065
    
    [GRAPHIC] [TIFF OMITTED] T1041.066
    
    Mr. Burr. And in that, the chairman asked you if, in fact, 
pilots had been encouraged, and the response to that, dated May 
17, 1999, was that the EPA is aware of no instances in which it 
had to encourage cities to apply for pilots. I would give you 
one new opportunity to tell me, did the EPA have to encourage 
any of the participants of this revolving fund?
    Mr. Fields. Mr. Chairman, our response stands as it is.
    Mr. Burr. Have you seen the IG's report?
    Mr. Fields. Yes.
    Mr. Burr. Did you sit down with the IG and express any 
concern over the conclusions that he found?
    Mr. Fields. My staff did discuss the IG's draft report with 
the IG's staff. I did not talk personally to the IG about this 
report.
    Mr. Burr. Did the IG revise their report based upon their 
conversations with you or your staff?
    Mr. Fields. Well, they made some modifications, but they 
reflected on our comments in preparing their final report.
    Mr. Burr. So if any one of the 21 participants in the 
program that were interviewed by the staffs of this 
subcommittee suggested that the EPA had encouraged them in any 
way to participate in the fund, they would be lying to us?
    Mr. Fields. Well, I can't say that the IG is lying. I am 
just telling you, Mr. Chairman, that the extent of my knowledge 
and what I was told by my staff, I am not aware of us 
encouraging pilots to apply.
    I think you have to be careful about the word and how 
``encourage'' may be interpreted. For example, and you will 
hear this from the next panel, we work all the time with cities 
to help them to apply. We provide technical assistance. We work 
with them to help fill out applications, to fill out government 
forms. Some could say that that is encouraging them. I see it 
as providing technical assistance.
    When a community calls you, or a Mayor or a city calls you 
and says, can you help me prepare an application for this 
government assistance, we do that in a lot of our programs, not 
just brownfields. I don't see that as ``encouraging'' someone 
to apply. You are helping someone to fill out the government 
paperwork who has an interest in applying for Federal 
assistance.
    Some would read that as encouragement. I read it as 
providing technical assistance. And, we do that in lots of 
communities across America. We provide technical assistance to 
those who have an interest in applying for brownfields 
assessment grants, revolving funds, and training grants. That 
is done every year.
    We have many more applications for this program than we 
could ever respond to. We can't give people all of the 
assistance they need. We are not out there trying to beat the 
drums and say please apply for this program. We have many more 
people who are applying than we could ever fulfill the need. We 
do help them when they call upon us to assist them in figuring 
out how to comply with the government application procedures. 
That is done all the time.
    That is the only thing I am aware of.
    Mr. Burr. Trust me when I tell you that this Congress 
understands that there are two meanings for every word. We have 
learned that this year for the first time.
    You alluded to earlier that we just haven't had enough time 
for this revolving fund to be successful. I took the 
opportunity to look back at the Drinking Water Revolving Loan 
Fund. It was created--or appropriated in September 1996 for the 
fiscal year 1999. From April 1999 through June 30, 1999--excuse 
me, April 1997 through June 1999, there had been 637 loans for 
a total value of $1.3 billion. We have had one for $250,000. 
What is the difference?
    Mr. Fields. Well, I think that there are differences in 
these programs. The brownfields Revolving Loan Fund program is 
complex, and is used for hazardous waste removal situations. 
Brownfields may have many chemicals. You are focused on 
providing loans to private entities primarily who are involved 
in trying to clean up brownfields.
    Mr. Burr. Most of this stuff you have talked about is 
structural.
    Mr. Fields. Right. There are great differences. There has 
been an infrastructure there for a much longer period of time 
under the Safe Drinking Water Act Fund or the Clean Water Act 
Revolving Loan Fund. The infrastructure has been around for 
many years.
    The Brownfields Cleanup Revolving Loan Fund has only been 
around for 2 years, since September 1997. That is when we 
started this program. I don't think you can measure a program 
that has been around for a much longer period of time and say 
that this program has been given a fair shake. When someone 
comes back and talks to you 2 years from now, I think we will 
begin to share with you the same kinds of results that we are 
achieving for the brownfields assessment program. Many jobs, 
many private cleanup investment dollars will be provided.
    Mr. Burr. I think you misunderstand the intent of this 
committee and the members on it. I think that, in fact, we are 
going through, hopefully, a thorough process of determining 
what it is we should use to evaluate success.
    Mr. Fields. I agree.
    Mr. Burr. Clearly, the tools at hand are minimal today, 
because we have only had one loan. When you compare nothing to 
nothing, it is very difficult to assess whether that is 
success. I would expect most individuals who participate in a 
program where the seed money exists and where we have a liberal 
administrative reimbursement, I think it is 25 percent under 
your program that can be used for administrative--am I correct?
    Mr. Washko. Fifteen percent to the grantees and 10 percent 
to the borrowers.
    Mr. Burr. Which is a total of 25 percent, I think.
    Mr. Fields. Okay.
    Mr. Burr. That will set your staff into a little bit of a 
disagreement. Clearly, we would like to know in the future what 
we should compare it to for success. Clearly, you have said it 
is unfair to compare it to the Drinking Water Revolving Fund. 
If success is these 23 initial participants actually having 
cleaned up sites 2 years from now, which is the timeframe that 
you gave us, so be it. It doesn't mean that this committee 
won't look at the process along the way, suggest and offer our 
help, look for new ways to streamline and make it more 
successful. Because I will assure you on both sides of the 
aisle of this committee, our interest is in one thing: Cleaning 
up brownfields. And given that more of them have been cleaned 
up outside of this revolving fund than inside this revolving 
fund, personally, if there is a pot of money, I would like to 
see it seed the outside effort versus the Revolving Loan Fund, 
just simply because of the success, and success defined as 
sites cleaned up.
    The Chair at this time will adjourn the first panel.
    Mr. Fields. Thank you very much.
    Two quick points in closing, Mr. Chairman.
    Mr. Burr. Yes, sir.
    Mr. Fields. On the points you have just made the cleanups 
that have been done outside of this program, keep in mind, many 
have been through or, as a result of the brownfields assessment 
program.
    Second, look at one brownfields loan under this program in 
Stamford, Connecticut, there a $250,000 loan is resulting in 
$50 million in private investment. That is just one loan, and 
many more will be issued during fiscal year 2000, and 2001. 
That $50 million that Stamford is getting in private sector 
investment from that one loan is in excess of the $35 million 
we gave out for all of the Revolving Loan Fund grants in fiscal 
year 1999 alone, one loan. That just tells you the magnitude of 
the success someone will be reporting to you 2 years from now.
    Mr. Burr. Well, I look forward to not only the other 23 
coming before us and talking about the size of it, but I am 
anxious to hear the gentleman from Connecticut, because he has 
done an amazing thing of leveraging a mere $250,000 into a huge 
amount of development, and I wish him nothing but success and 
look forward to his testimony.
    Thank you, Mr. Fields.
    Mr. Fields. Thank you.
    Mr. Burr. The first panel is adjourned.
    The Chair would take this opportunity to call up the 
participants of the second panel.
    The Chair would like to welcome all three of our witnesses 
on the second panel and make everybody aware of the fact that, 
for the question-and-answer portion, I think we have made 
arrangements for you to be joined again by Mr. Fields so that 
we will have an opportunity to ask everybody.
    At this time, the Chair would like to pass over Mr. Malloy 
in hopes that Mr. Shays, who has asked to introduce you, can 
make it back from the vote.
    The Chair at this time would introduce the Senior Project 
Manager for Brownfields and Industrial Development of the 
Boston Redevelopment Authority, Mr. Thomas Ahern.

    TESTIMONY OF THOMAS P. AHERN, SENIOR PROJECT MANAGER FOR 
 BROWNFIELDS AND INDUSTRIAL DEVELOPMENT, BOSTON REDEVELOPMENT 
                           AUTHORITY

    Mr. Ahern. Thank you, Mr. Chairman.
    My name is Thomas Ahern, and I am the Senior Project 
Manager for Brownfields and Industrial Development for the 
Boston Redevelopment Authority. We are the city's planning and 
economic development agency.
    I am here today to talk about what Boston is doing on 
brownfields development under the leadership of Mayor Menino, 
what programs we use to spur development and cleanup of 
contaminated property, and to share our thoughts about the 
Revolving Loan Fund and its efforts.
    Boston is a compact city with few developable acres 
available for new growth. Since we cannot grow new land, we are 
required to look to sites such as brownfields for new 
development opportunities. While Boston grows into the new 
millennium, we are also faced, like many northern industrial 
cities, with cleaning up the by-products of our 20th century 
economy.
    Since 1987, over 1,400 spills of oil or hazardous material 
in Boston have been reported to our State Department of 
Environmental Protection. Many of these spills have been 
cleaned up, yet many still continue to pollute our soil, our 
groundwater and our neighborhoods.
    What is Boston doing to assist with private brownfields 
development? Under Mayor Menino, Boston has tried to develop a 
``menu'' of options for developers, community development 
corporations, nonprofits and private property owners to solve 
their brownfields problems. A typical approach to developing a 
financing plan would be to ``cherry pick'' at several different 
city, State and Federal initiatives and attempt to combine them 
with private financing or developer equity.
    We use city initiatives such as tax abatement, public 
takings of property, community development block grant funds 
and debt financing through agencies like the one I work for, 
the Boston Redevelopment Authority.
    We offer assistance in gaining access to State initiatives 
such as the new, in-State Massachusetts brownfields law 
program. This State effort, which just recently began after 
passing the legislature in August 1998, provides tax credits 
and $30 million in loans and grants toward the cleanup of 
brownfields. The law also provides new liability protections 
for lenders, tenants and new innocent owners. Because this 
program is relatively new, however, it is difficult to 
accurately assess its effectiveness at this time. However, we 
believe it will be a critical tool in the future.
    The City and the BRA also seek Federal assistance for 
brownfields through redevelopment. Some of our neighborhoods 
hard hit by brownfields are located in an Empowerment Zone, 
which can bring significant financial assistance. Tax credits 
are also available for projects located in the Zone. The City 
can also elect to use some of its Section 108 loan guarantees 
to help with the development, something Boston is doing right 
now to encourage development in areas of economic hardship.
    We are also using the HUD Brownfields Economic Development 
Initiative, which awards grants for cleanup along with 
additional Section 108 loan guarantees for redevelopment. We 
recently received an award of $7 million under this program for 
our top brownfields site, the Modern Electroplating facility in 
Roxbury. An additional Federal incentive is the Federal Home 
Loan Bank, which provides financing, letters of credit and 
financing for brownfields projects that are having trouble 
locating capital.
    Boston was selected for a Brownfields Pilot Assessment 
under the EPA in 1995, for which we received a $200,000 grant. 
The funds were used to hire a brownfields coordinator and to 
identify brownfields sites in several neighborhoods of the 
city. The City worked with numerous community organizations in 
a 3-year effort to identify, map and assess brownfields 
development opportunities in the community. Today, 4 years 
after the grant was awarded, Boston is well on its way to 
cleaning up and developing three of the primary sites that we 
identified through this grant.
    In 1997, we were awarded a $350,000 Revolving Loan Fund by 
the EPA. The intent of the program was to continually offer a 
financing mechanism for cleaning up brownfields sites. One of 
the main impediments to successful redevelopment has been the 
lack of money available for cleanup work. This program has 
offered Boston the opportunity to finally provide access to 
critical funds.
    However, a funny thing happened on the way to the landfill. 
The more we learned of the program, the more problematic it 
became to administer the funds.
    From the time the City agreed to accept the funds in 
October 1997 through January 1999, we were engaged in the 
process of negotiation with EPA Region One regarding several 
difficult issues.
    Among the primary concerns we had were:selection of an on-
scene coordinator to oversee the cleanup activities; 
development of an application packet; CERCLA regulations; the 
requirement that the City secure a site if a loan is defaulted 
upon; and the types of properties and contaminants for which 
the funds could be used.
    Without a doubt, the two most difficult issues for the City 
have been CERCLA regulations and the OSC requirements. These 
factors have been major impediments to carrying out the RLF 
program in Boston.
    May I continue, Mr. Chairman?
    Mr. Upton. As you know, your statement is made complete in 
the record, but if you could summarize it, it would be fine.
    Mr. Ahern. I would like to.
    What we are trying to do in Boston is use the Revolving 
Loan Fund to help spur cleanup of our most problematic sites. 
The program has been difficult to administer over the last 2 
years, but, recently, we received an application to use these 
funds. We are very excited about making a loan sometime within 
the next few months on one of our top brownfields sites. And I 
believe that one of the sites, actually, that we could be using 
this loan money for within the next 6 to 8 months is actually 
one of the sites that we used our EPA Brownfields Pilot 
Assessment money for.
    So, as Mr. Fields mentioned, the money is being used, at 
least in the city of Boston. We are planning on using it as the 
natural projection line, the pilot assessment which we received 
in 1995 now through 1997.
    But we have had difficulty with the program, although we 
believe we are in a position to now be making a loan sometime 
within the next 6 to 9 months.
    [The prepared statement of Thomas P. Ahern follows:]
   Prepared Statement of Thomas P. Ahern, Senior Project Manager for 
 Brownfields and Industrial Development, Boston Redevelopment Authority
    Mr. Chairman and members of the Committee: My name is Thomas Ahern, 
and I serve as the Senior Project Manager for Brownfields and 
Industrial Development at the Boston Redevelopment Authority (BRA). The 
BRA operates as the City of Boston's planning and economic development 
agency, responsible for overseeing development in both our downtown as 
well as our neighborhoods. Within this structure, the City has also 
placed the responsibility for developing and carrying out an aggressive 
brownfields strategy. I am here today to talk about what Boston is 
doing on brownfields development under the leadership of Mayor Thomas 
Menino, what programs we use to spur cleanup and revitalization of 
contaminated property, and to share our thoughts about the EPA 
Revolving Loan Fund and its role in our efforts.
    Boston is a compact city with few developable acres available for 
new growth. Since we cannot grow new land, we are required to look to 
sites such as brownfields for new development opportunities. While 
Boston grows into the new millennium, we are also faced, like many 
northern industrial cities, with cleaning up the by-products of our 
20th Century economy.
    Since 1987, over one thousand four hundred spills of oil or 
hazardous material in Boston have been reported to the Massachusetts 
Department of Environmental Protection. Many of these spills have been 
cleaned up, yet many still continue to pollute our soil, groundwater 
and neighborhoods.
The Boston Approach--
    What is Boston doing to assist with private brownfields 
development? Under Mayor Menino, Boston has tried to develop a ``menu'' 
of options for developers, community development corporations, non-
profits and private property owners to solve their brownfield problems. 
A typical approach to developing a financing plan would be to ``cherry 
pick'' at several different city, state and federal initiatives and 
attempt to combine them with private financing or developer equity.
    We use city initiatives such as tax abatements, public takings of 
properties, Community Development Block Grant funds and debt financing 
through city agencies like the BRA.
    We offer assistance in gaining access to state initiatives such as 
the new Massachusetts Brownfields law program. This state effort which 
just recently began after passing the Legislature in August of 1998, 
provides tax credits, loans and grants towards cleanup of brownfields. 
The law also provides new liability protections for lenders, tenants 
and new innocent owners. The law will not only open up new 
opportunities for private parties to purchase brownfield sites, but 
will also encourage banks to open up their lending practices to 
contaminated sites. $30M was set aside for loans and grants towards 
assessments and cleanup and an additional $15M was appropriated to 
purchase environmental insurance for these sites. Because this program 
is relatively new it is difficult to accurately assess its 
effectiveness at this time, however we believe it will prove to be a 
critical tool.
    The City and the BRA also seek federal assistance for brownfields 
redevelopment. Several of our neighborhoods hard hit by brownfields 
issues are located in an Empowerment Zone, which can bring significant 
financial assistance. Tax credits are also available for projects 
located in the Zone. The City can also elect to use some of its Section 
108 loan guarantees to help with the development, something Boston is 
doing right now to encourage development in areas of economic hardship.
    Boston is also using programs like HUD's Brownfields Economic 
Development Initiative, which awards grants for cleanup along with 
additional Section 108 loan guarantees for the redevelopment. Boston 
recently received an award of $7M under this program for our top 
brownfields site, the Modern Electroplating facility in Roxbury. An 
additional federal incentive is the Federal Home Loan Bank, which 
provides low-cost financing, letters of credit and bridge financing for 
brownfields projects that are having trouble locating capital.
Boston and EPA Brownfields Programs.
    Boston was selected for a Brownfields Pilot Assessment in 1995, for 
which we received a $200,000 grant. The funds were used to hire a 
brownfields coordinator and to identify brownfields sites in several of 
the neighborhoods of the city. The City worked with numerous community 
organizations in a three-year effort to identify, map and assess 
brownfields development opportunities in the community. Today, four 
years after the grant was awarded, Boston is well on its way to 
cleaning up and redeveloping three of the five primary sites selected 
through the grant.
    In 1997, Boston was awarded a $350,000 Revolving Loan Fund by the 
EPA. The intent of the program was to continually offer a financing 
mechanism for cleaning up brownfields sites. One of the main 
impediments to successful redevelopment of brownfields has been the 
lack of real money available for cleanup work. This program offered 
Boston the opportunity to finally provide access to these critical 
funds.
    However, a funny thing happened on the way to the lined landfill. 
The more we learned of the program, the more problematic it became to 
administer the funds.
    From the time the City agreed to accept the funds in October 1997 
through January of 1999, we were engaged in a process of negotiation 
with EPA Region One regarding several difficult issues. Among the 
primary problems were:

<bullet> Selection of a ``On-Scene Coordinator'' (OSC) to oversee the 
        cleanup activities;
<bullet> Development of an application packet;
<bullet> CERCLA regulations;
<bullet> Requirement that the City ``secure'' a site if a loan is 
        defaulted upon;
<bullet> Types of properties and contaminants for which the funds could 
        be used;
    Without a doubt, the two most difficult issues for the City of 
Boston have been the CERCLA requirements and the OSC requirements. 
These factors have been major impediments to carrying out the RLF 
program in Boston and elsewhere.
    A typical Boston brownfield is not a Superfund site. In fact, 
Boston does not have any sites currently operating under CERCLA. 
However, if a developer secures a loan under the EPA Revolving Loan 
Fund, their cleanup is now governed under CERCLA regulations, which are 
immeasurably more onerous then the Massachusetts regulations. It has 
proven to be extremely difficult to convince private property owners 
and developers that it is in their best interest to willingly subject 
themselves to these additional regulations. Some attorneys will say 
that the requirements, in practice, are not terribly difficult. 
However, perception is reality in this case.
    Some of the developers of larger brownfield sites, which may fall 
under the strictest of cleanup regulations under the state law, will 
consider the program. In fact, we have discussed the program with 
developers of two specific sites recently. The reality is such that if 
there are other opportunities, even if it is private lending at twice 
the rate, for financing the cleanup without incurring CERCLA 
regulations, the developers more times than not will take the more 
expensive route. It just isn't worth the hassle. In the case of a 
typical site owner, I can not see a reason why they would take this 
loan, under these conditions, unless every other resource has been 
exhausted.
    Massachusetts employs a privatized cleanup system, whereby an owner 
hires an environmental professional to assess the site, report it to 
the state regulators, then undertake a cleanup effort within a certain 
period of time. To administer the EPA Revolving Loan Fund, the City is 
required to employ an On-Scene Coordinator to oversee the cleanup 
efforts. This employee must, according to regulations, be a public 
employee, meaning that the City can not contract with a private 
individual to perform these services. While the BRA employs many 
individuals who specialize in planning, development, design and 
finance, we do not have a person who could satisfy the requirements of 
an OSC. Imagine what smaller cities and towns must be faced with.
    EPA Region One, to their credit, identified that this would be a 
serious impediment to making loans. They suggested an innovative 
approach: have the EPA contract with the state DEP to serve as the OSC, 
paid for with a portion of each Massachusetts Pilot's funds. A great 
idea, except for one problem. Again, under the more progressive state 
privatized cleanup system, an owner of a site hires his or her own 
environmental professional. The state DEP does not oversee or approve 
of cleanup plans except for the most contaminated properties. We would 
be forced to require a private property owner to accept a state 
regulator as their On-Scene Cleanup Coordinator, essentially negating 
the concept of a privatized cleanup system. As you might imagine, the 
BRA saw this as creating one impediment to solve another, and we 
declined the offer.
    Recently though, the City of Boston hired an individual who can 
satisfy both the state and federal requirements of a cleanup 
coordinator. We hope that this effort on the City's behalf will solve 
this problem. But one must again consider what many of the smaller 
cities and towns must do to satisfy this requirement.
A Better RLF--
    So, what can be done to reform the brownfields programs, most 
specifically the Revolving Loan Fund, to best suit to the needs of 
cities like Boston?
    First, the time has come to finally pass meaningful brownfields 
legislation which separates the Superfund regulations from programs 
like the Revolving Loan Fund. The City of Boston has a host of programs 
and options to help bring about a successful assessment, cleanup and 
redevelopment of a contaminated site without having to resort to over-
regulation. The truth is that I do not recommend the RLF program to the 
vast majority of people who come to us looking for help because it 
simply has shown to be more trouble than it is worth. Additionally, the 
RLF is competing with other debt programs in the market. My rate may be 
lower, but on a $25,000 loan amortized over five years, is it really 
worth the lower rate when I have to hire three new attorneys just to 
ensure I am satisfying the regulations?
    Legislation, modeled upon many recent efforts at the state level 
such as Massachusetts and Pennsylvania, which creates specific cleanup 
guidelines for brownfields sites, and recognizes the wisdom of 
liability protections for innocent owners, will help us to better 
administer these programs.
    Secondly, sites which are primarily contaminated with oil products 
need to be eligible for this program. In Boston, a recent review of all 
brownfield sites found that over 70% were contaminated with oil. Each 
of these sites would have a difficult time passing current regulations 
under this program. A developer of one site, upon finding out that the 
RLF program can not be used for oil sites, had his environmental 
professional go back out and take further samples to see if they could 
find any other problems. They actually were hoping to find something 
worse. Luckily for them, they did, as lead and other hazardous 
materials were found on the site.
    We also need to recognize that market conditions, which today allow 
for private construction financing of some brownfields cleanups, will 
not always be as favorable to difficult brownfield projects. Many of 
the brownfields projects in Boston currently underway are financed 
primarily through construction loans. This is due in part because the 
state passed lender liability reform in its brownfields bill. But as 
the market changes, so too will the availability of private capital. In 
two years time, this program may be critical not only to the toughest 
projects, but to the typical ones as well. Cutting off the RLF program, 
rather then reforming it to suit the needs of the cities which manage 
the funds, will eliminate an important tool out of our menu of options.
    Lastly, I would like to make the case for more direct grant 
programs like the HUD Brownfields Economic Development Initiative. 
Without the BEDI grant Boston recently received, our top priority site, 
Modern Electroplating, would be nothing but a faint dream. The 
economics of the project just do not support having a private developer 
pay the assumed $5M cleanup cost for a property valued at $500K. The 
grant will pay for 35% of the cleanup, with the developer responsible 
for the additional equity. The additional $5M in Section 108 loans will 
finance 35% of the development costs. State and federal tax credits and 
the possible access to state funds may pay for an additional 25% of the 
cleanup costs.
    Now, where we once said, ``Wouldn't it be great if . . .'', the 
community is saying, ``Isn't going to be great when . . ''.
    Mr. Chairman, you may be asking why we continue to pursue the RLF 
program in light of all the other incentives that are available to us 
and developers. I would like to call to your attention two critical 
brownfields projects that, without the infusion of RLF funds, would not 
be able to succeed.
    The first is a development whereby a local arts organization will 
partner with a local developer to construct 100 new units of housing, 
two new performing arts theaters, artist work space and galleries and 
specialty retail shops. It is a proposal at this stage, and the 
finances of the project are complex, without adding in the difficulties 
I have discussed. But for this project, there are no other options. The 
menu of options has been exhausted, with many of the tools being 
utilized for this project.
    The cleanup costs are $1.8M, of which $500K is coming from the 
developer and $500K will come from the new state brownfields fund. 
$300K is presumed to come from equity in the property in the form of a 
price break in the purchase price. Tax credits do not work because the 
arts agency is a non-profit, and has no tax liability. It is not in the 
Empowerment Zone, and other City CDBG and Section 108 funds have been 
exhausted on other projects. While, the EPA Revolving Loan Fund is the 
option of last resort in this case, without the funds, the project will 
die.
    Another project is the aforementioned Modern Electroplating 
project. Although up to 60% of the cleanup costs may be covered by the 
HUD grant, tax credits and the Massachusetts brownfields program, we 
will still be saddling a developer with at least $2M in cleanup costs. 
This price may be even higher after testing on groundwater is complete. 
The use of the EPA Revolving Loan Fund could well be a deciding factor 
in our ability to attract qualified developers. Again, most of the 
other options have been exhausted, and we will still face a shortfall. 
This property is not in an area where bankers come running to lend on 
severely contaminated sites, so we must be there to ensure the success 
of the project.
    The menu approach to brownfields redevelopment works if the right 
tools are available. Today, with our menu of options from the state and 
federal government, we are on the right track. But much more can and 
should be done. EPA programs like the Revolving Loan Fund can be 
catalysts in moving a project from dream to the reality. But only if 
the program can shed its unnecessary regulatory restrictions.
    I ask that as you examine this and other EPA-administered programs 
that you consider the effects of combining Superfund with brownfields, 
and the restraints it places on cities like Boston. We need the 
Revolving Loan Fund, just as we need the EPA Pilot and Assessment 
programs, the HUD programs and the state-sponsored programs to make a 
difference. But we also need Congress to finally pass meaningful 
brownfields legislation that creates its own set of rules and 
unshackles the sites from continued community blight.
    Thank you, Mr. Chairman, for this opportunity.

    Mr. Upton. Thank you very much.
    For purposes of introduction, I would like to recognize my 
colleague, Mr. Shays, from Connecticut.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, it is really nice to be in front of this 
committee. As Mr. Bryant said to me as I came in, he said, 
welcome to the Big Leagues, so it is nice to be in the Big 
Leagues.
    Mr. Upton. We refer to it as the Big House, too.
    Mr. Shays. But I did notice that on the mike it says, 
``switch forward to activate, switch off when not in use.'' We 
didn't feel in our committee we needed an explanation of the 
switch.
    I just wanted to say to you, Mr. Chairman, and to members 
of the committee, that it really is a very sincere honor to be 
given the opportunity to be in your committee to welcome Dannel 
Malloy, who is the Mayor of Stamford, and, frankly, just an 
outstanding Mayor.
    For those of you who don't know, Stamford is a community of 
about 105,000 to 110,000, depending on which census we use, and 
is an extraordinarily successful city. It ranks second only to 
Chicago in terms of the number of corporate headquarters. There 
are 11 economic bases in the city, in large measure due to the 
work of this Mayor. In other words, we don't just have banking, 
we have a large insurance industry, and the list goes on.
    It is just an amazing place, but it is also a place that is 
an old-time city. The Mayor was instrumental in helping to 
rebuild the City's public housing and attracting businesses. He 
also acknowledged we have a lot of old industry that has left, 
and he took the initiative to be a part of the brownfields 
program. It is really the only city to date that has moved 
forward with the Revolving Loan Fund application. I think you 
turned it around, Mayor, the next day.
    He anticipates problems before they occur, he plans for the 
future, and I consider it the best-run city in the country with 
an outstanding Mayor. It is wonderful to have you here.
    Mr. Malloy. Thank you, Chris.
    Mr. Upton. Thank you very much. You are welcome to 5 
minutes as well. Thank you for coming before the subcommittee.

   TESTIMONY OF HON. DANNEL P. MALLOY, MAYOR, CITY OF STAMFORD

    Mr. Malloy. Thank you, Mr. Chairman. Particularly thank you 
to my Congressman and my friend, Chris Shays, for his 
introduction.
    Good morning to all of the members of the subcommittee. I 
am Dannel Malloy, Mayor of Stamford, Connecticut, as you have 
heard.
    Today I will describe how Stamford has sparked a 
revitalization of brownfields on its waterfront and explain why 
Federal assistance and resources for these efforts, including 
through the Brownfields Cleanup Revolving Loan Fund, has been 
important to our initiatives. I will also point out some areas 
of the EPA brownfields loan program that Congress should 
streamline to make the tool more viable and workable for local 
communities and the private sector.
    I hope that you understand from my testimony that the 
brownfields problem requires the contribution and resources of 
many partners, including the Federal Government, and that 
programs like the brownfields RLF program should be continued 
and improved.
    The city of Stamford is located on Long Island Sound, just 
35 miles from New York City. While Stamford is an old 
industrial city settled in 1641, most of the historic 
manufacturing companies have left Stamford, leaving behind 
their contaminated industrial sites. We call them brownfields.
    The South End and Waterside neighborhoods of Stamford along 
the community's waterfront are blighted with several large 
brownfields sites. Stamford is leading innovative efforts to 
revitalize brownfields with the support of the Federal 
Government under the Brownfields Showcase Community Initiative 
and with the assistance of the State of Connecticut and the 
private sector. However, many barriers remain to our 
revitalization, and more help is needed in Stamford.
    One tool that has made a difference in Stamford is the U.S. 
EPA Brownfields Cleanup Revolving Loan Fund, or RLF program. 
Stamford recently obtained $500,000 EPA funding to capitalize a 
RLF. Stamford is the first community in the Nation to make a 
loan to a private sector developer that will help turn 
waterfront brownfields into new housing, new jobs, new 
recreational opportunities and new life for Stamford's south 
side neighborhoods.
    Stamford developer Seth Weinstein has borrowed $250,000 in 
low-interest bridge funding for the Stamford RLF to redevelop a 
12.6-acre former fuel oil depot and an adjacent 3.3-acre 
parcel, a former location of a shipbuilding operation. The 
proposed Southfield Harbor Residential Community will be a 
waterfront development consisting of approximately 320 rental 
apartment units, a 68-slip marina, and a publicly accessible 
harbor walk, next to a city park. The development will bring 
over $50 million of private investment and is expected to 
generate 200 construction jobs, 12 full-time permanent jobs. 
This development is cleaning up a former industrial site, 
creating housing and opening up the waterfront to the City's 
residents for the first time in more than 60 years.
    This project shows that the EPA's brownfields RLF program 
can work for communities. Stamford's staff has set up an 
effective program that meets the EPA criteria and developers' 
needs. Indeed, developer Seth Weinstein has reported that the 
loan arrangement was as simple, straightforward and reasonable 
as any he has seen in the development financing industry.
    I am also happy to report that Stamford is now in 
discussions with a motorcycle dealership that wishes to locate 
on a Stamford brownfields site and is seeking RLF funds to help 
that deal. In fact, we anticipate loaning them $200,000.
    It is nice being first, but I will be second as well, if 
need be.
    At the same time, I can tell you that local governments 
have concerns about several aspects of the EPA brownfields RLF 
program which stem from its unnecessary connection, unnecessary 
in my opinion, to the Superfund program and which this Congress 
can fix easily. Because EPA RLF funds are taken from Superfund 
moneys, these funds are tied to the requirements of the 
Superfund National Contingency Plan, many of which are quite 
burdensome and inappropriate for brownfields' redevelopment.
    For example, brownfields' RLF funds cannot be used to 
address contamination from petroleum or remediate buildings 
contaminated with asbestos or lead paint. However, these 
contaminants are the cause of a vast number of brownfields, 
including a large number in my community.
    In addition, the Superfund restrictions on the brownfields 
RLF program requires that cities designate a government 
employee as a site manager to oversee the cleanup at particular 
brownfields sites. Many cities do not have qualified staff who 
can serve this role. In our case, the State of Connecticut was 
not able to provide--may I continue?
    Mr. Upton. Go ahead. If you could summarize.
    Mr. Malloy. It will move quickly--to provide this service, 
and we were forced to turn to the Army Corps of Engineers. The 
nearest office where we could obtain this help is Portsmouth, 
New Hampshire. And, quite frankly, we should be allowed to hire 
a licensed professional to oversee this aspect of the project; 
and we could hire that person in Stamford. We wouldn't have to 
be paying a government employee to drive from Portsmouth, New 
Hampshire.
    I have other examples which I would be happy to share with 
you.
    In conclusion, cities like Stamford are demonstrating that 
tools like the EPA brownfields RLF program are making a 
difference in revitalization of our communities. I would like 
to work with Congress to help streamline this program and make 
it a stronger program for the future. Thank you very much.
    [The prepared statement of Dannel P. Malloy follows:]
  Prepared Statement of Hon. Daniel P. Malloy, Mayor, City of Stamford
    Good morning Mr. Chairman and Committee Members. Thank you for the 
opportunity to speak before you today in reference to the U.S. EPA 
Brownfields Cleanup Revolving Loan Fund (BCRLF) Program, and the City 
of Stamford's successful participation in this program.
    This morning, I plan to focus on three areas. First, I will talk 
about how the City of Stamford is successfully using Brownfields 
Cleanup Revolving Loan funds to facilitate the cleanup of a former 
industrial site that has been a serious blight on the community for 
many years. Our first BCRLF loan is helping to transform the site into 
a $50 million private development that is creating new housing and 
jobs, and opening up our waterfront to City residents for the first 
time in 60 years.
    Second, I will talk about how the BCRLF Program is helping to fill 
the critical, ongoing need of local governments for federal brownfields 
cleanup funds. Finally, I want to urge Congress to work closely with 
EPA to make critical changes needed to streamline this BCRLF program so 
that localities can more easily set up RLFs and get the funds to the 
private borrowers who will clean up and redevelop these sites.
                 background on stamford revitalization
    The City of Stamford is located on Long Island Sound, just 35 miles 
from New York City. Its diverse population consists of 111,000 people. 
We have a strong corporate base, with four corporations from the 
Fortune 500 and thirteen Fortune 1000 corporations headquartered in 
Stamford. While Stamford is an old industrial city, settled in 1641, 
most of the historic manufacturing companies have left Stamford, 
leaving behind their contaminated industrial sites.
    The brownfields problem calls for creative approaches by local 
governments, and the partnership and resources of federal and state 
governments and the private sector. Stamford has demonstrated how local 
leadership can result in revitalization and, as described below, why 
the contributions of federal, state and private sector partners are so 
critical.
    Stamford has shown that it is a city that works in community 
revitalization. A Mayor's job is to bring funding and new programs to 
his City. I am a Mayor who makes things happen in my City. I feel it is 
not enough just to bring grant funds to Stamford, but to make those 
funds work by committing staff and resources to make these programs a 
part of the City structure that produces results.
    I have made changes in City government to provide a more citizen-
friendly organization and have established and maintained open lines of 
communication between myself and Stamford citizens as well as between 
myself and over 3,000 City employees. I maintain open office hours and 
have established a Citizen's Services Bureau to handle citizens' 
complaints on an ongoing, daily basis. I also hold a monthly Mayor's 
Night Out to give citizens an opportunity to meet with me to discuss 
issues important to them. Through these avenues, I have been able to 
understand the concerns of Stamford residents, and have been able to 
find programs and funding that will provide solutions.
    I have worked closely with the U.S. Department of Housing and Urban 
Development to reconstruct various areas of our City. Stamford was 
awarded a $26 million Hope VI grant to redevelop a blighted public 
housing complex in the Waterside neighborhood, the area with the 
greatest level of poverty in the City. This is also the neighborhood in 
which our first Brownfields Cleanup loan was made.
    The City of Stamford is seeking Congressional support for $17 
million in Federal Transit Administration appropriations, which has 
been authorized for the design and construction of the Stamford Urban 
Transitway. This Transitway is necessary to open up Stamford's South 
End to brownfields redevelopment, and alleviate traffic in and around 
our Transportation Center, the second busiest rail station in the 
Northeast--second only to New York's Grand Central Station. Our 
Transportation Center is undergoing a $100 million expansion.
    In 1998, the City of Stamford became one of 16 communities 
nationwide to be designated a Brownfields Showcase Community. This EPA 
designation is in keeping with my plans for revitalization of older, 
industrial areas, and the preservation of open space for our community. 
In addition, it furthers my efforts to partner with federal and state 
agencies on projects to benefit the citizens of our City.
    However, there are still areas that continue to need funding in 
order to see this revitalization effort through to completion. One of 
those areas of need is the clean up and redevelopment of contaminated 
sites, especially in our South End and Waterside neighborhoods. South 
End has a population that is 80% minority, with 18% living below the 
poverty line. Waterside has a population that is 71% minority, with 25% 
living below the poverty line.
                       stamford's first rlf loan
    In 1999 Stamford applied to EPA for an allocation under the 
Brownfields Cleanup Revolving Loan Fund Program. On June 1, 1999 EPA 
announced that Stamford received preliminary approval of a $500,000 
allocation to establish a Revolving Loan Fund. In October, 1999, 
Stamford made its first brownfields cleanup loan to a private 
developer, who will borrow $250,000 in low interest funding to support 
the development of housing on Stamford's waterfront. Let me tell you 
why I think the City of Stamford succeeded in making the first loan in 
the country under the Brownfields Cleanup Revolving Loan Fund Program.
    I am proud to say that with my strong staff in my Grants Office, I 
was able to bring the Brownfields Cleanup Revolving Loan Fund to 
Stamford. With the committed support of the experienced staff in my 
Community Development Office, Stamford developed its Brownfields loan 
program. The Stamford Community Development Office, which routinely 
handles loans to property owners developing housing using HUD's CDBG 
and HOME funds, used their experience in HUD loan programs and housing 
development to establish the Stamford's Brownfields loan program in an 
expedient manner.
    The months of July and August were devoted to preparing a 
cooperative agreement application, model loan documents and creating 
the loan process. The loan documents were designed to meet all 
obligations of the EPA program but at the same time be fair to 
participating developers.
    First and foremost, any proposed site cleanup and redevelopment 
must be economically feasible. The brownfields loan must be repaid to 
the revolving fund so that the dollars may be reused to clean up other 
sites. Stamford has a strong economy and real estate market so that the 
cost of environmental cleanup can usually be supported by the land 
value once a site is clean.
    However, the economic feasibility and the after-cleanup land value 
do not necessarily mean that a project can proceed without assistance 
of the Brownfields Revolving Loan Fund. Private lenders are wary of 
lending on a site that has environmental contamination. If the 
Brownfields funds can be used as a bridge loan for the cleanup, private 
lenders will commit to financing the redevelopment including repayment 
of the Brownfields loan.
    To provide an incentive to developers to use Brownfield loan funds 
to remove environmental contamination, redevelop sites and quickly 
repay the loans, Stamford structured its loan program as follows: 
developers may borrow up to $250,000 for a period of up to 15 months at 
an interest rate of 6%. If the developer repays the loan in 12 months, 
the interest will be forgiven. If the loan is not repaid upon maturity, 
the interest rises to 12%. Brownfields loans are secured by a first 
mortgage.
    To jump start the program, we did not wait until we had a signed 
assistance agreement with EPA for the Brownfields Cleanup Revolving 
Loan Fund before we marketed the program. In August, at the same time 
that we were designing our Brownfields loan program documents, we 
publicly advertised the anticipated availability of EPA loan funds for 
the cleanup of redevelopment sites. The legal notice announced that 
applications would be accepted on a rolling basis.
    Stamford had a developer, Seth Weinstein, who was experienced in 
brownfields redevelopment and has a keen vision of what brownfields 
sites can become. We were well aware that he had been working for the 
past two years on a plan to redevelop a 12.6-acre former fuel oil depot 
and the adjacent 3.3-acre parcel, which was a former location of a 
shipbuilding operation. Since the planned environmental cleanup of the 
site met all of the requirements of EPA's Brownfields Cleanup Revolving 
Loan Fund program, the City of Stamford encouraged the developer to 
apply for participation in the program and potentially become the first 
developer in the country to utilize a Brownfields loan.
    The proposed Southfield Harbor Residential Community will be a 
waterfront development consisting of approximately 320 rental apartment 
units, a 68-slip marina, and a publicly accessible harborwalk. It is 
adjacent to a City park and across the street from an affordable 
housing condominium with 75 units. The development will bring over $50 
million of private investment and is expected to generate 100-200 
construction jobs and 12 full-time permanent jobs. This development is 
cleaning up a former industrial site, creating housing, and opening up 
this waterfront to City residents for the first time in over 60 years.
    Prior to the announcement of the RLF program, the developer had the 
subject property under contract for purchase. He had already completed 
his Phase I and Phase II environmental assessments. His architectural 
plans were complete. He had obtained most of his local approvals from 
Stamford's land use boards. He had his development team assembled and 
was putting his financing in place.
    Since the developer had been in close consultation with the 
residents of the neighborhood throughout his planning process, he had 
already met many of the EPA requirements for community involvement. On 
August 31st we held a public hearing in the neighborhood to discuss the 
plans for cleanup and redevelopment of the site. Approximately 60 
residents attended the meeting and showed support of the proposal.
    In the month of September, Stamford completed its negotiation of 
the final loan terms with EPA and the developer. On September 15th EPA 
issued their Assistance Agreement to the City, which I signed on 
September 23rd. On October 4th the developer and I signed the 
Brownfields Loan Agreement.
    It was through a dedicated team of city staff, working together 
with EPA and a developer with Brownfields expertise, that my City was 
able to issue the first loan. We are fortunate in Stamford to have a 
developer who not only is astute in business matters, experienced in 
brownfields redevelopment, but also is very aware of the need to engage 
neighbors early in his planning process. The EPA's Region I and 
headquarters staff are also to be praised for their hard work and 
timely responses to the many and various questions posed by the City of 
Stamford.
    In bringing this loan program to life in Stamford, I am able to 
make real things happen. We are able to complete the cleanup of a 15-
acre waterfront parcel, adjacent to a City park. We will bring a new 
residential area to life, to be woven into an established and stable 
residential area just across the street. We are tying communities and 
people together and bringing long time residents back to Long Island 
Sound through publicly accessible walkways along the waterfront.
    I am happy to share with you that Stamford is now studying the 
feasibility of its second loan under the Brownfields program. In this 
case the developer, the proprietor of a motorcycle dealership, has a 
contract to purchase the site. He has completed his Phase I, II and III 
environmental assessments. He has received approvals from the land use 
board, and his financing for the redevelopment is in place. The site 
was a former machine shop and engraving operation which was the source 
of contamination. The environmental cleanup will cost approximately 
$200,000. He has had an initial meeting with the neighborhood, and the 
residents support the proposal.
              congress should streamline the bcrlf program
    Having gone through the process of establishing a local RLF and 
issuing our first brownfields cleanup loan, we believe that there is a 
critical need for Congress to work with EPA to streamline the Program. 
We understand that because RLFs are funded with Superfund dollars, EPA 
believes that it must require all RLF-funded cleanups to meet the 
requirements of the Superfund National Contingency Plan, many of which 
are quite burdensome and inappropriate for brownfields sites.
    For example, Superfund funds cannot be used for petroleum sites, or 
the cleanup of buildings contaminated with lead and asbestos. However, 
the lack of funding to remediate these contaminants is often an 
impediment to the redevelopment of many brownfield sites.
    Another burdensome requirement is that each participating City must 
hire a Brownfields Site Manager to monitor the cleanup. The Brownfields 
Program requires that the Site Manager must be a governmental agency 
employee. In Stamford, like most cities of its size, we do not have 
such on-staff expertise. This requirement forces us to engage the 
Connecticut Department of Environmental Protection or the U.S. Army 
Corps of Engineers to perform this function. The Connecticut DEP has 
declined to serve as the Site Manager due to its own staffing issues. 
Having no alternative, we have been forced to engage the Army Corps, 
which has assigned personnel in the distant location of Portsmouth, NH 
to provide the Site Manager services. We prefer to hire a private 
licensed environmental professional to provide Brownfields Site Manager 
services including daily on-site monitoring activities. The Program 
requirements prohibit this. Instead, the law should provide that the 
City is able to use an existing qualified staff person, or a qualified 
private licensed environmental professional to fill this function.
    Congress can fix these impediments to effective brownfields cleanup 
loans by separating the BCRLF program from unnecessary Superfund 
restrictions and requirements. These changes do not require 
comprehensive legislative reform, but merely a technical fix that is 
necessary to remove a barrier to the effectiveness of this program for 
local communities.
                               conclusion
    As I said in the beginning of my testimony, cities across the 
country need resources to help fund the cleanup and redevelopment of 
brownfields. The U.S. Conference of Mayors' recent report on the status 
of brownfields sites in 223 cities nationwide indicates that the lack 
of cleanup funds is the major obstacle to reusing these properties. 
While EPA's Brownfields Cleanup Revolving Loan Fund Program has hurdles 
to overcome, it is one program that attempts to address this critical 
funding need.
    In conclusion, while EPA has provided leadership on brownfields 
issues, it is clear that the time has come for Congress to enact 
brownfields legislation to ensure an ongoing source of funding for 
brownfields cleanup and redevelopment, and to eliminate Superfund 
requirements from the Revolving Loan Fund Program. Cities all over the 
country need the commitment and financial support of the federal 
government to help continue the cleanup of Brownfields sites. Cities 
across America need public funds to provide the financing for the 
higher risk cleanup phase. This will help leverage the private 
financing needed for the redevelopment of Brownfields sites.
    Thank you again for this opportunity to testify today. I will be 
happy to answer any questions you may have.
[GRAPHIC] [TIFF OMITTED] T1041.067

[GRAPHIC] [TIFF OMITTED] T1041.068

[GRAPHIC] [TIFF OMITTED] T1041.069

    Mr. Upton. Thank you very much.
    Ms. Foss.

   TESTIMONY OF DARSI FOSS, WISCONSIN DEPARTMENT OF NATURAL 
                           RESOURCES

    Ms. Foss. Good morning and thank you for the opportunity to 
be here, Mr. Chairman and members of the subcommittee. When I 
woke up on Monday morning, this is not where I thought I would 
be spending my Thursday, but I do appreciate the opportunity.
    I am the chief of the Brownfields Section at the Wisconsin 
Department of Natural Resources. I have been the chief point of 
contact since we passed our first State legislation on 
brownfields. I am working with the city Mayors, county 
treasurers and a lot of local governments, lenders and private 
developers to make sure their sites in Wisconsin get cleaned 
up.
    Today I find myself in a very changed situation. Tim Fields 
and Linda Garczynski are the reason why our Wisconsin program 
is where it is today, for their support and financial 
assistance. But I am also here today to talk about a program 
that I don't think has met all of our expectations, and I think 
everyone in this room would like to make this a better program.
    With those thoughts, I would like to talk a little bit 
about my experience working with local governments, and how 
that shapes the testimony I am going to give today. In my 5 
years, we spent about 9 months critiquing our own State program 
with the Mayors, businesses, environmentalists and provided a 
report to our legislature, what was working well in Wisconsin 
and what wasn't. So some of my experience was from that. That 
comes into play. Wisconsin really thinks we need to increase 
the amount of Federal money available for brownfields cleanup. 
For the next 2 years, we will have $35 million in our State 
alone, and we think the $40 million is a good start federally, 
but I think there is a need for more money.
    The second point I would like to make is the consideration 
of the issuance of grants, especially to local governments. It 
is very difficult for local governments on some of these 
properties that the private sector is not interested in to turn 
those over, and they can't do that oftentimes with loans 
because they count against their public debt and they go 
against their expenditure authority. So time and time again in 
Wisconsin and other places I hear we need grants, and that is 
what I have heard.
    No. 3 is considering broadening the eligibility. It is 
really hard for me to go to the little town of Stettin, 
Wisconsin and look at their 40-acre, former EPA removal site 
that no one is interested in and tell them why they are really 
not eligible for these kinds of funds, where the city of 
Milwaukee is eligible. So we think there is some real need out 
there in all kinds of urban and rural communities.
    I think, as mentioned before, and I think people are in 
agreement, we need to streamline the technical cleanup 
requirements on this program. I talked to a number of people 
when we were considering as a State applying for this money, 
and they really felt uncomfortable running through an NCP-type 
process. Most of our consultants in our State are familiar with 
our State regulations. They don't do EPA removal cleanups. That 
is something that they just are not familiar with. Our Mayor 
and our county treasurers and businesses are finally getting 
comfortable with our State regulations, and I think that would 
make the Federal funds more attractive.
    Point five is consider the consolidation of the 
administration of the program. I think what we heard from the 
communities that were eligible for this money but did not 
choose to apply is they really did not have the technical 
expertise and the horsepower to apply and operate this kind of 
program, but they felt like the State could do it, and we just 
said we couldn't do that right now for them.
    No. 6 is something we learned from our own State process 
and our own State loan program, people really want you to, 
``run it like a bank.'' We heard that time and time again. 
Streamline the administrative requirements. What you are going 
to find is there are several doors available to people who are 
looking for money, and there will be local grants and State 
grants and there will be lots of people standing in front of 
that door. It is really hard to get people to stand in front of 
the door for either a State or a Federal loan. The more 
attractive and simple you make it, the more you are going to 
have customers waiting to get those loans.
    I think the last point is we need to provide more 
flexibility to folks to make this work based on the needs out 
there of the people that I deal with, to make this money 
available and streamlined and simple and a process that they 
understand. I think there is a real need, urban and rural, for 
this money, and I look forward to working with you folks and 
the folks at EPA to get these things going and improving the 
program. Thank you.
    [The prepared statement of Darsi Foss follows:]
Prepared Statement of Darsi Foss, Brownfields Section Chief, Bureau for 
    Remediation and Redevelopment, Wisconsin Department of Natural 
                               Resources
                              introduction
    Mr. Chairman and distinguished members of the Subcommittee, my name 
is Darsi Foss, and I am the Chief of the Brownfields Section of the 
Wisconsin Department of Natural Resources. The Wisconsin Department of 
Natural Resources (WDNR) is the primary environmental protection agency 
for brownfields in Wisconsin, and I have been working on Brownfields 
issues for the Department since the inception of Wisconsin's 
Brownfields Initiative in 1994. I am here today to talk about my 
thoughts and experiences with EPA's Brownfields Initiative, 
particularly focusing on the Brownfields Cleanup Revolving Loan Fund 
program.
    Brownfields continue to be a serious concern of many rural and 
urban communities, and there is a significant need for public financial 
incentives on the federal, state and local levels. The Wisconsin DNR 
believes that EPA should be applauded for providing financial 
assistance to States, such as Wisconsin, and local governments to 
address this very real social concern. Without the EPA's assistance, we 
could not have started our brownfields initiative, and would be several 
years behind in the development and implementation of our brownfields 
efforts if not for that support.
    As the EPA may tell you, the State of Wisconsin has been very 
creative in developing its brownfields initiative. We have been 
involved with almost every EPA Brownfields initiative, with the 
exception of the Brownfields Cleanup Revolving Loan Fund (BCRLF) 
program. After much analysis and discussion, the WDNR chose not to 
participate in this effort. However, our lack of participation in this 
initiative should not be construed as non-support for EPA's efforts. 
With some further flexibility on how the EPA can use this money, we 
believe this could be a very attractive program.
    Summarized below are the WDNR's recommendations for the type of 
changes that could be made to the Brownfields Cleanup Revolving Loan 
Fund program to improve its attractiveness to parties looking for 
cleanup funds:
                     increase the money available.
    We believe that the amount of money available nationwide should be 
substantially increased to enhance the attractiveness of this 
initiative. Currently, there is only $35 million available nationwide 
for this program and the maximum grant amount is $500,000. It is likely 
that a very small number of projects could be funded with this amount 
of money. In contrast, the State of Wisconsin has $20 million in the 
Land Recycling Loan program, a zero-interest loan program for local 
governments for brownfields and landfill cleanups. This state program 
is funded using money repaid to the state from the federal Clean Water 
Fund Program (CWFP).
                       consider grants, not loans
    The DNR believes that the purpose of the government providing 
public funds for brownfields is to fill the gap left by the private 
sector. Where the private sector is not interested in a brownfields 
property, the public sector, such as a city or county will likely need 
to play a major role in the initial or full revitalization of that 
property. Local governments and private parties are looking for and 
often need grants, not loans, due to the economics of that brownfields 
project. Where a state has a brownfields grant program, you will likely 
see diminished interest in any type of loan program, whether it is 
state or federally funded loan programs.
                          broaden eligibility
    The DNR estimates that there are approximately 10,000 brownfields 
properties in Wisconsin. However, based on current eligibility 
limitations, the DNR could not loan this money out to needy 
communities, businesses or individuals in the state. We could only loan 
it out in communities that have received brownfields pilot grants from 
the EPA. Given this, DNR recommends that the loans be made available 
more broadly, not just to pilot communities.
                    streamline cleanup requirements
    The DNR recommends that the person receiving a loan be allowed to 
conduct her or his cleanup in accordance with the state's voluntary 
cleanup regulations, not the National Contingency Plan (NCP) 
requirements for non-time critical removal. Using the state cleanup 
approach will likely result in cost and time savings to the person 
undertaking the cleanup. More parties may be interested in the loans if 
the cleanup process is one that they and their environmental consultant 
are familiar with, is less costly and saves them valuable time.
                 consolidate administration of program
    The DNR recommends that the EPA consider the consolidation of these 
loans into one administrative entity, such as a state agency or the 
Regional Office of EPA. Efficiencies could be gained by having a 
limited number of entities administering a larger number of loans, and 
wider public outreach could be conducted to market these funds. 
Presently, the recipient can use up to 15% of the funds for 
administrative expenses. Based on our experience, that would not be 
enough to manage the loan program, and for the technical oversight that 
would be necessary for the long-term administration of this program. 
The WDNR would need at least one full time employee annually for 
several years to manage the financial side of this program
                 streamline administrative requirements
    The simpler you make the loan program to apply for and administer, 
the more attractive it will be. Especially where it is competing with a 
local or state grant program. Presently, the administrative 
requirements are daunting to many entities interested in some form of 
brownfields financing.
                        provide epa flexibility
    In order to most effectively use this money and make some of the 
needed changes for this program, EPA needs greater flexibility on how 
they can use these funds. It is no secret that the use of Superfund 
moneys for this initiative is the one of the greatest challenges to 
implementing an effective and efficient brownfields program.
    In closing, I would like to thank you, Mr. Chairman and members of 
the Subcommittee, in allowing me to present to you today some of the 
recommendations we believe would help strengthen and improve the 
attractiveness of the Brownfields Cleanup Revolving Loan Fund program. 
We believe that there is a serious and demonstrated need for federal 
funding for the cleanup of brownfields properties. The lack of activity 
concerning the BCRLF program is not representative of the real need in 
urban and rural communities for financial assistance with these 
contaminated properties. This important initiative needs some fine-
tuning in order to make it more attractive to communities, businesses, 
and individuals. We look forward to working with you and the EPA to 
make this program a more effective tool to assist in the cleanup of the 
estimated 600,000 brownfields properties nationwide.

    Mr. Upton. Thank you very much.
    I want to say a couple of things.
    First of all, as with Mr. Fields, we appreciated getting 
your testimony so that we could review it last night. That was 
very helpful. Thank you very much.
    Mr. Shays had the added--he bounced off of us on the House 
floor during the last couple of days to encourage us that you 
were coming.
    Mr. Fields, we also appreciate your willingness to stay for 
this panel, and if you would come back to the table. I 
appreciate you being back at the table.
    I appreciate all of your experiences and thoughts and 
testimony. And really all of you have talked about flexibility 
and the need to try and make this program accountable to your 
own city and reflect, I think, common sense in a lot of ways.
    I guess, Mr. Malloy, as I listened to your testimony as you 
talked about the Corps of Engineers actually having to go to 
New Hampshire--not to campaign for President--I know when I 
went to New Hampshire, I flew to Boston to go there, so it 
helped some friends up there.
    But did you go back to the EPA to try and get some waiver 
or some understanding with regard to this particular 
requirement?
    Mr. Malloy. I personally did not. I believe there was 
discussion about it. But because of the link, as I understand 
it and represent this to the best of my knowledge, because of 
the link to the Superfund statute, it has to be a government 
employee. Quite frankly----
    Mr. Upton. There is nobody in Connecticut that can go to 
some other place.
    Mr. Malloy. Well, Mayors don't lend employees to one 
another, and we don't have an employee on staff in Stamford who 
met the requirements. We did ask the State, and the State 
refused to participate, I think to their embarrassment at this 
point. And I am hopeful that when we make the second loan, at 
least in Stamford, if not nationally, that the State will then 
provide that service to that applicant.
    Mr. Upton. And what department from within the State would 
you seek----
    Mr. Malloy. We have a State EPA department. We asked them 
initially. They refused to participate at the time. Again, I 
think they were embarrassed by that, not because of these 
proceedings, but it just doesn't make any sense when you are in 
business to improve the environment not to participate and help 
a municipality.
    Mr. Upton. So do you view that as more of your own problem 
with your own State, or EPA by not allowing----
    Mr. Malloy. Well, I think the rule itself is silly. If we 
go through a licensing process for a professional and we grant 
a license, then why not allow me to hire the person that we 
licensed for that purpose to oversee what is relatively a small 
loan, a $250,000 loan? We have lots of people in our 
community--in fact, we are engaged in a training program to get 
people the license that would allow them to do this type of 
work. So I think that that is an important change that could be 
made.
    Mr. Upton. As you know, you have the distinction of being 
the only pilot that actually received and cashed the check 
allowing this program to go. And as we reviewed the history of 
your application, it looked like it was fairly quick order.
    Mr. Malloy. Well, I don't apply for things for political 
reasons or publicity. If I apply for something or authorize my 
city to apply for it, I take it very seriously. And as we were 
going through this application process, Mr. Weinstein's site 
was one that we specifically indicated we would be desirous of 
making a loan on. We had done our work. We had been working 
with Mr. Weinstein for a series of years. This is a site that 
had previously been sought to be developed in the last economic 
boom, so we were ready.
    On June 1, when we received the preliminary award that we 
would participate in this, we moved, continued to move 
actively. On August 31, before we had actually received the 
final EPA contract, we held our public hearing. We had over 60 
people attend that public hearing in this relatively difficult 
neighborhood. September 15, I got the agreement forwarded to 
me. On September 23, I signed the agreement; and October 4, we 
made the first loan.
    I am very proud of my people. I have good people working 
for me. And if they are not good people, they don't work for me 
much longer.
    Mr. Upton. Mr. Ahern, you indicated in your testimony, and 
I read part of it to Mr. Fields, at the beginning where you 
write, ``it just isn't worth the hassle.'' Have you had some 
discussions with EPA to try and alleviate some of these 
regulations?
    Mr. Ahern. A great deal. Actually, EPA Region One, which 
covers New England, has been quite helpful to us, and they have 
tried immeasurably to try to assist the city of Boston. And I 
imagine from my discussion with other cities like Bridgeport, 
actually, who I have spoken to about this program, that EPA has 
tried very hard to try to find some ways around this problem.
    The OSC problem, for instance, we tried to solve it in much 
the same manner as Mayor Malloy did. And what happened is that 
we have a system in Massachusetts of a privatized cleanup 
system. And what would happen, if our State EPA, who, by the 
way, our State agreed to participate and serve as the onscene 
coordinator through a contract with EPA, not specifically 
through the city of Boston.
    But I was concerned because, under the privatized cleanup 
system which many States have nowadays, you would have--I would 
be put in a situation--the City would be in a position where we 
would be telling a private property owner who would be 
interested in taking this loan that I know you hired this 
private person to perform your cleanup and do your assessments 
and so on and so forth, but I am going to put a person from the 
State Department of Environmental Protection on your site as 
your onscene coordinator. And I spoke to several people who 
were interested and who were looking for loans and who were 
looking for help on this site, and several of them were like, I 
don't think that is the way I want to go. I have a tier two 
site. It is a simple process. If I can find the money, the guy 
comes in, he does the assessment, he does the cleanup, he files 
the paperwork, we are done. I don't need EPA--or, excuse me, 
DEP on my site every day.
    So for that purpose, we declined the offer of the State.
    Now, recently, the city of Boston made a commitment and 
hired a person to serve that role of OSC. The person is a 
licensed waste site cleanup professional in the State of 
Massachusetts. Our hope is that she will also satisfy the 
requirements of the OSC. They are different, so it is not as 
simple as just going and hiring a Massachusetts-licensed 
professional as it would be in Connecticut, as well the same 
thing. There are very different requirements that you have to 
hit. So we are hoping that she will be able to serve that role.
    But for all intents and purposes EPA was very helpful for 
us. It is just that what they can do was not helpful for us.
    Mr. Upton. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman.
    Welcome again, Mr. Fields, back to the panel and our very 
distinguished panel. As I described in my brief opening 
statement, the people out in the field who I think bring a very 
good perspective to this entire oversight hearing.
    Mayor, welcome. Congratulations to you. I spent a long time 
running a 15K there about 20 years ago in the streets of 
Stamford when I was running in those days, but it is a 
beautiful city.
    Mr. Malloy. Thank you.
    Mr. Bryant. I had a slow tour of it.
    Mr. Ahern, let me apologize. I came in a little bit late 
after voting and missed the majority of your testimony today. 
But I wanted to ask you, in preparation for this hearing, you 
talked to our committee staff here of this oversight 
subcommittee in recent weeks. And during the discussions you 
indicated there were several sites in Boston where your office 
suggested to the parties who were redeveloping the sites that 
they should consider the Revolving Loan Fund. In those cases, 
the parties actually opted to obtain funding through private 
loans instead. In your written testimony you say that this is 
the case, even though the terms of the private loan are more 
expensive. Can you explain to us a little bit more about why 
those particular people you referred to selected the private 
funding route over this EPA program?
    Mr. Ahern. Primarily because of the restrictions and the 
problems that we have described, all three of us, really, here, 
and actually Mr. Fields as well.
    Primarily it is an issue of CERCLA regulations, something 
that I am sure that this committee has heard ad nauseam. But 
for the people on the ground--and I will give you just one 
example.
    There is a gentleman in the Jamaica Plain neighborhood of 
Boston. It is an up and coming neighborhood, but it is 
primarily a working class neighborhood that has brownfields 
located right next door to homes because, you know, you would 
have foundries that were located for 50, 60, 70 years and up 
around this neighborhood as it has grown, homes have grown.
    And this one gentleman who, early in my tenure--and I 
should add that I have been in this job since August 1998, so 
some questions you may ask predate my involvement.
    However, this gentleman, he was in dire need and has been 
in dire need of specific funds to clean up a site because he 
was building artists' lofts and artists' working space, and he 
was taking this foundry down. He had TCE on his site, he had 
PCBs, he had oil, lead, arsenic, you get the message. He pretty 
much had everything you could find.
    When we discussed this program, as we discussed--as I noted 
in my testimony, we discussed really the menu of options. We 
could go through the City, what the City can do, discussed what 
the State program can do. We talked about tax credits, talked 
about loans. Debt for him was something of a problem but 
something that he could undertake. He was essentially eating up 
his development budget with the cleanup costs because the 
cleanup costs were skyrocketing. He was going to need more 
money.
    What he elected to do after we discussed this program and 
after I gave him the application book that describes, you know, 
what CERCLA is and what the program is going to require, he 
elected instead to actually take the contamination and move it 
to another portion of the site where he wasn't going to be 
doing the development immediately, and he started with his 
first part of his development on the portion that isn't as 
contaminated. In fact, he just contacted me again the other day 
through a letter and said, is the State program up and running 
yet? Because I really need some more money to take care of this 
problem.
    Mr. Bryant. All right. Thank you, Mr. Ahern.
    Ms. Foss, I made a reference to you and one of your 
statements in examining Mr. Fields earlier, but as I have 
reviewed your testimony and State, you indicate that Wisconsin 
chose not to participate in this program. And without casting 
aspersions on it, you made some very positive suggestions 
listed in your statement and you have testified those today.
    Specifically, you mentioned one of the latter 
recommendations being the efficiencies that could be gained by 
having a limited number of entities administering a larger 
number of loans such as a State agency or regional office of 
the EPA. Is it your suggestion perhaps that EPA should award 
these revolving loan funds to the States and that the States 
could administer those--could administer this program better?
    Ms. Foss. Well, I think one of the things we have heard 
time and time again is the problem of people maybe not applying 
who were eligible. And the communities that I work with said 
the reason they didn't is they just did not have the horsepower 
to get the application in and then to operate the program. But 
they really looked to us to do that, because we had done it for 
the Clean Water Fund and the Safe Drinking Water Fund money and 
some other moneys. So, oftentimes, the local governments do 
look to the State to do that and probably more efficiently than 
them running the little grants.
    So I don't know if this is a DNR recommendation per se, but 
I think one of the things we are seeing time and time again is 
folks are having trouble keeping the infrastructure going in 
their communities, and it might be helpful to have it 
consolidated.
    Mr. Bryant. Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman; and welcome to each one 
of you.
    I have to say congratulations to you, Mayor, and I am sure 
that not only the comments of Mr. Fields but the comments of my 
colleague, Chris Shays, are very deserving, and I will share 
with you that I would never run for Mayor. You might say, I 
would never run for Congress. But you are certainly close to 
the problem, and I think that that is why this panel is so 
special.
    I truly meant it when I said to Mr. Fields earlier that the 
intent of everybody up here is to clean up sites, to develop 
the property that is there, to make sure that by whatever means 
we accomplish that as productive parts of the areas that we 
come from, whether it is looking at it from a State standpoint, 
like Ms. Foss, or the local, city of Boston or Stamford. I 
guess the question that I have to ask you is, would this 
project have gone forward without the involvement of the 
Revolving Loan Fund?
    Mr. Malloy. I anticipated that question. We were working 
with this developer on a number of sites, so the answer might 
be that it would go forward without this one, but another 
project would have been put on hold that we are pursuing with 
the same developer.
    And when I applied for the Showcase Community designation 2 
years ago, without this site having been designated as one of 
the sites and without holding out to banks its designation when 
it came in in March 1998, this project would not be moving 
forward.
    So if you are talking about a package of EPA benefits that 
are available, I think the overall answer is that it would not 
be moving forward. If you are talking about would this large 
project, having moved through all of the approval process, have 
gone forward, I think the truthful answer is it probably would 
have, but other things would have been put on hold.
    Now, my next loan is a motorcycle shop. I don't know 
whether you have one, but the gentleman is going to sell hogs, 
and he has to buy a building that is a former machine shop, and 
the ground is contaminated with the residue of that process. 
And I can give you my word that that project would not move 
forward without this loan.
    And I would say, finally, that many of these smaller sites 
have to be cleaned up before a bank will loan to a guy who runs 
a hog shop, because they are not going to make a loan based on 
his good name or his existing business in a rental building to 
a site that requires cleanup. It scares the bejesus out of 
banks. And we have to help these people. This guy is going to 
employ--this big complex is going to employ 12 people. This 
little deal is going to employ four.
    Mr. Burr. I think all three of you have expressed concerns 
about the program as structured, that if you had a pen and a 
blank sheet of paper and could design the Revolving Loan Fund, 
it would look different.
    I guess the first question--and I will let anybody answer 
that would like to--is, have you shared that with Mr. Fields? 
Did he listen?
    Mr. Malloy. Well----
    Mr. Burr. And what would it look like?
    Mr. Malloy. Let me answer that.
    I am not--I am pretty direct about my criticism of Federal 
agencies. I have had run-ins with EPA. I have had run-ins with 
HUD. I have to tell you that I have discerned in these 
organizations a desire to reshape themselves and to work with 
municipalities--I am talking the Mayor's side--municipal 
government.
    There are 222 municipalities in the United States with a 
population of 100,000 or more, and I suspect that the Mayors of 
those cities are getting a better listening to over the last 
couple of years than we experienced prior to that time, and I 
would say that EPA and HUD are two of the agencies that have 
turned around most directly.
    Having said that, why can't I use this to clean up 
petroleum? Why can't I use this to clean up asbestos? Why can't 
I use this to clean up lead? Why can't I hire an inspector?
    When I have answers to those questions, then I think we 
will have a package that makes a lot more sense.
    Mr. Burr. Mayor, you and Mr. Ahern I think both alluded to 
a concern as it related to the regulation of an on-scene 
coordinator. That is a requirement. Now, who is that on-scene 
coordinator and what do they do and how much does it cost?
    Mr. Fields. I will start.
    Mr. Ahern. Why don't you start?
    Mr. Fields. The reason for the on-scene coordinator 
requirement is that we want to have someone there to provide 
oversight for cleanups at Superfund sites.
    Mr. Burr. Who is that person? Is it a Federal employee?
    Mr. Fields. It could be a Federal employee, State or local 
government employee. It has to be a government employee.
    Under the regulations for Superfund, it has to be a 
governmental employee. It could be any level of government, but 
it requires a governmental entity to oversee and assure that 
environmental rules are complied with for cleanup.
    Right now, that is the problem. We agree that there needs 
to be some fixes, but, right now, that is why a governmental 
person has to be there to oversee cleanup activity.
    Mr. Burr. What does that cost, Mr. Ahern?
    Mr. Ahern. In the State of Massachusetts, a newly licensed 
waste site cleanup professional that is versed in the State 
laws would cost $65,000 a year.
    Mr. Burr. You don't need to have this person until you have 
had a site approved; am I correct?
    Mr. Ahern. That is correct.
    Mr. Burr. Once you have a site approved and you are making 
a loan to that site, then, out of the Revolving Loan Fund, you 
can use up to 10 percent, 15 percent----
    Mr. Ahern. Fifteen.
    Mr. Burr. [continuing] to fund that individual and any 
other administrative cost with the program, correct?
    Mr. Ahern. That is correct.
    Mr. Burr. Do you need that person?
    Mr. Ahern. We need that person for a lot of different 
reasons, not just for the Revolving Loan Fund. I mean, it is a 
person who, from a city's perspective, could serve a lot of 
uses.
    However, for this particular project, I think it is in the 
best interests to have somebody working for the city whose 
responsibility it is to ensure the proper cleanup of the sites, 
since we are effectively making the loan. However, does that 
person need to be a government employee? I disagree. I don't 
believe that it does. I believe that the Massachusetts' 
system----
    Mr. Burr. When they say onsite, does that just mean 
somebody available to look at the progress that is being made?
    Mr. Ahern. Yes. Somebody to oversee.
    Mr. Burr. They don't have to be out there every day?
    Mr. Ahern. No, sir.
    Mr. Burr. Okay.
    Mr. Malloy. Well, it is a little more technical than that, 
because each plan requires--there are steps in each plan and, 
frequently, each step has to be certified. So a person will 
have to make multiple trips----
    Mr. Burr. Certified by whom?
    Mr. Malloy. By the individual who is required to be a 
government employee. So, for instance, you have to reveal the 
substance that has to be removed. Well, that process has to be 
inspected. So there are a number of items, but it would be a 
lot easier for me just to contract--I mean, I do it for city 
work, so why shouldn't I be able to do it for this work--to 
contract with a private entrepreneur who is licensed to do 
that.
    Mr. Burr. The chairman is getting a little impatient with 
me. Let me ask one last question, because I see we have other 
members here.
    I want to understand the process, Mr. Ahern, that Boston 
went through relative to their selection. I would take it that 
you filled out an application, sent it to EPA. You wanted to 
be----
    Mr. Ahern. I do have to tell you, Congressman, that I came 
to the Boston Redevelopment Authority in August of last year, 
August 1998. So the actual application, in applying to EPA for 
this program, predates my involvement with the program. I 
worked for the Commonwealth of Massachusetts.
    Mr. Burr. So by the time you got in, they had applied, they 
had been approved, they were a participant in the program, you 
would have had administrative manuals?
    Mr. Ahern. By the time I started, sir, the administrative 
manual had been released just a few months earlier, in May, and 
I started in August. So I came on----
    Mr. Burr. You came in August 199----
    Mr. Ahern. 1998.
    Mr. Burr. But the Revolving Loan Fund started in 1997.
    Mr. Ahern. That is correct, sir.
    Mr. Burr. And the administrative manual wasn't ready until 
May 1998?
    Mr. Ahern. That is correct.
    Mr. Burr. Let me ask you, Mr. Fields, could people proceed 
forward without an administrative manual?
    Mr. Fields. Yes, sir, Mr. Congressman. We implement 
programs without guidance sometimes. You don't necessarily have 
to have guidance.
    Mr. Burr. How does one know how to proceed without 
guidance?
    Mr. Fields. As I said earlier, in the National Contingency 
Plan Regulators response activities. We use removal authority 
to oversee and conduct brownfields cleanups. We have statutes. 
We have regulations.
    Mr. Burr. I just heard Ms. Foss talk about a larger scope 
of brownfields cleanup, and I agree with you totally. Tell me 
how that small town in Wisconsin, without an administrative 
manual, could have proceeded.
    Mr. Fields. Our people in Chicago at Region Five were 
providing a lot of hands-on assistance to people, interpreting 
our regulations, interpreting the law, and explaining how this 
process would proceed. The administrative manual codified 
evolved over several months' discussion about how this program 
would proceed and that is not unusual.
    Mr. Burr. I see the chairman is going to cut me off, but 
with that much--with that much help from everybody in the EPA, 
I am amazed that Mayor Malloy was the only one to actually make 
a loan.
    I would yield back, Mr. Chairman.
    Mr. Upton. Well, before you yield back, I want to use 1 
minute of your time----
    Mr. Burr. I am happy to yield to you.
    Mr. Upton. [continuing] before I yield to Mr. Blunt just to 
ask this question.
    As we explore further this onsite coordinator that you had 
to take from New Hampshire to come down from Connecticut, we, 
the Congress, didn't write these regulations, the EPA did. It 
was EPA's requirement that that happened. Is there not a 
provision, Mr. Fields, that you could write that would have 
allowed some waiver or some agreement with some of the comments 
made by both Mr. Malloy and Mr. Ahern that it doesn't 
necessarily----
    Obviously, you do have to have someone there. Someone that 
the cities or the municipality trusts is going to make the 
right decision. But it isn't us that passed down that 
requirement, it was you all. And I would like to think as we 
are all seeing on this flexibility page song sheet that you 
would be in tune with everybody else, that we could get some 
waiver or some agreement so that they don't have to go to this 
pretty large expense to get someone to come down from New 
Hampshire to go to Connecticut or from North Carolina to 
Michigan.
    Mr. Fields. There is two ways to fix this. One is to pass 
the legislative provision, as I mentioned earlier, which would 
allow us to only apply those things from the NCP that are 
appropriate and relevant. That is something Congress can fix. 
It is in H.R. 1750.
    Second, as I indicated, we would have to go back and amend 
our regulations that EPA has promulgated. We would have to 
amend them to eliminate the application of an engineering 
evaluation cost analysis, require an action memorandum, or the 
12-month requirement for brownfields cleanup. There are things 
we can do, but that would have to be done through regulatory 
change on the EPA side.
    Congress could also enact legislative fixes that would 
solve some of the problems that have been pointed to by all 
three of these speakers.
    Mr. Burr. Reclaiming my time----
    Mr. Upton. Would the gentleman yield further?
    Mr. Burr. Is the gentleman from the EPA suggesting his 
willingness to go back and change those administrative things 
that he can address?
    Mr. Fields. Congressman, we are hopeful that the Congress 
and the administration can agree on appropriate legislative 
change. We think that is faster. Regulatory change is going to 
take a minimum of 2 years to make change. We will go back and 
look at whether we can do some streamlined regulatory changes. 
But, I think Congress can act faster than we could within EPA 
to make those changes.
    Mr. Burr. I have learned in the short life I have been 
here, Mr. Fields, that the process that we go through is one 
where we legislate and then agencies change the regulations to 
reflect the intent of the legislation. And what you have done 
is you have added a step in there. When you can change the 
regulation within the process at EPA, why wait for us to pass 
legislation that we all agree on for you to rewrite the 
regulation, when you can do it to start with?
    Mr. Fields. We will go back, Congressman, and look at that 
option, particularly if the prognosis for legislative change 
does not look like that is going to occur within a 2-year 
window.
    Mr. Burr. My hope is that we will judge it based upon our 
outlook for possible cleanups.
    Would the chairman like me to yield any more time?
    Mr. Upton. The gentleman's time now has finally expired, 
and I will yield to Mr. Blunt.
    Mr. Blunt. Thank you, Mr. Chairman.
    I want to apologize for not being here to hear the 
testimony, but I have looked at the testimony submitted. And I 
have a couple of questions, and they may even tend to be 
repetitive, but I wouldn't know that. And if they are 
repetitive, I guess you will know when you go back, Mr. Fields, 
that these are issues that have some resonance here.
    Really, the first question is, Ms. Foss in her testimony 
indicated the significant ability to expand the cleanup effort 
if you use the various State voluntary cleanup program 
regulations instead of the national plan, and I want to ask Mr. 
Fields to comment on that.
    Ms. Foss, before he does, would you give me just a little 
more of your thought on that? What would you see as the 
expansion in Wisconsin? I mean, I am prepared to take the facts 
you are most familiar with if, in fact, the voluntary plan 
could be used as opposed to the national plan, the State 
voluntary plan.
    Ms. Foss. Thank you very much.
    First of all, we have a brownfields memorandum of agreement 
with EPA that recognizes our program as something that they 
agree with and think does good cleanup. So I think that is one 
of the strong points in our favor.
    I think when we talked to our local governments and the 
lenders and businesses, they are using this process on a daily 
basis. This is what they feel comfortable with. It has been in 
place since 1994. This is what the consultants in Wisconsin use 
at any kind of site. Whether it is petroleum or hazardous waste 
or just hazardous substances, they are using our one regulation 
to clean up these properties.
    I think it would make the loan program more attractive if 
they had something that they felt comfortable with. It is one 
less thing that they had to deal with. They could just go hire 
the XYZ consulting firm to go out and do the cleanup and not 
have to look around for somebody who is familiar with the 
Federal regulations, because we just don't have that 
familiarity in Wisconsin.
    Mr. Blunt. Mr. Fields, do you want to comment on your sense 
of whether or not we could move in that direction where you had 
more flexibility but, obviously, some ability for input from 
your Agency?
    Mr. Fields. Yes, Congressman.
    I agree that more flexibility needs to be provided. I agree 
with Ms. Foss that we need to have a more flexible system than 
the National Contingency Plan for brownfields cleanups. I 
believe that certain requirements in the National Contingency 
Plan should be eliminated as they apply to these types of 
cleanups. We should not have to prepare an action memo, prepare 
an engineering evaluation/cost analysis, or comply with the 
Superfund specific grant regulations.
    A lot of those elements should be eliminated, and I agree 
with that. As I have said, we either do it through regulatory 
change or through legislative change. Those are the two 
options.
    We are going to work with Congress to see if legislative 
change can be effectuated. If not, we will have to pursue some 
targeted, quick regulatory changes to make sure that we can 
eliminate some of these hoops.
    We will try to do it administratively, but we agree with 
Ms. Foss that a more flexible approach for brownfields cleanups 
is needed and that the National Contingency Plan does create, 
we believe, unnecessary hurdles. But right now, under the 
current statute and regulations, there are impediments in our 
ability to deviate very much from those current requirements.
    Mr. Blunt. Are the greater impediments in the current 
regulations or in the current statutes?
    Mr. Fields. Well, one of the issues that has been brought 
up by both Mayor Malloy and Mr. Ahern was the discussion we had 
about the on-scene coordinator being a government employee. The 
statute requires that the on-scene coordinator be a government 
employee. That is something in the law.
    I can change by regulation the requirement to eliminate the 
action memorandum, the engineering evaluation cost analysis, 
the requirement to comply with Superfund-specific grant 
regulations. I cannot change the requirement that the person 
who oversees those cleanups be a government employee. That is 
something that is in the statute, not in the regulations.
    So there are some parts of this I can fix possibly through 
regulatory change. Other parts of it Congress would have to fix 
through legislative change.
    Mr. Blunt. If you started fixing your part right now, how 
long would that take?
    Mr. Fields. We project that it would take up to 2 years. We 
would try to go as quickly as we can.
    The last time we changed the National Contingency Plan, it 
took us 4\1/2\ years. Ms. Garczynski was the person who headed 
up the last rewrite of the National Contingency Plan, and it 
took almost 5 years to do it.
    We would try to beat that and do something more quickly, 
but, still, you are talking about a couple-year process.
    Mr. Blunt. Is there anything in the current legislation 
that is out there that would make these kinds of changes?
    Mr. Fields. Yes, one piece of legislation that we talked 
about earlier, I think before you came in. Language in H.R. 
1750, one bill that has been introduced in Congress that the 
administration supports for brownfields, would include a 
provision that would say that the procedural requirements of 
the national contingency plans, as applicable to brownfields, 
would be limited to only those requirements that are relevant 
and appropriate for brownfields. That type of language in the 
statute, we believe, would allow EPA to have apply only certain 
Superfund cleanup requirements to brownfields cleanups. That is 
consistent with what I think Ms. Foss was indicating regarding 
a more flexible, targeted type of approach for brownfields 
cleanups as compared to Superfund cleanups.
    Mr. Blunt. Ms. Foss, do you agree with that 
characterization of where you think--where you are on this?
    Ms. Foss. Absolutely. I do agree with Mr. Fields.
    Mr. Blunt. And do you see a problem if we eliminate the 
requirement for a government employee to supervise in these 
defined brownfields areas?
    Ms. Foss. You know, I don't, sir. Because the fact is, even 
if somebody is cleaning up in the State of Wisconsin according 
to the Federal requirements, the State of Wisconsin also has 
its own law and is going to be interested in making sure that 
they are going to follow our law. So they are going to have to 
come in and either ask for some kind of no further action 
letter at the end, or they may be going through what is called 
our voluntary cleanup program, wanting some kind of liability 
release where we would be reviewing the project anyway. But 
they would have to comply with State law as well.
    Mr. Blunt. Mr. Chairman, based on the time zone that Mr. 
Burr was in, could I ask one more question, assuming the clock 
continues to run in my favor here?
    Mr. Upton. Go ahead.
    Mr. Blunt. My other question would be on another point in 
trying to broaden the efforts to get this done with greater 
flexibility. It was the question about making loans to 
communities that weren't in the pilot project category. Is 
there any way to go back and do that, Mr. Fields?
    Mr. Fields. We have--and I agree with Ms. Foss that we do 
want to consider in terms of being eligible for Brownfields 
Cleanup Revolving Loan Fund some communities who are not 
brownfields assessment pilots, and we have done that. Some 
communities in Massachusetts, some communities in Minnesota, 
some in Indiana, they are part of the Brownfields Cleanup 
Revolving Loan Fund program, but they did not have an existing 
brownfields assessment grant. So I agree with Ms. Foss that--
and EPA has tried to expand the program beyond brownfields 
pilots to include those communities where some targeted 
assessment work has been done, either through a State or 
through an EPA grant contract. So I agree that we don't 
necessarily have to have a community that is a brownfields 
assessment pilot to be eligible for brownfields cleanup 
revolving loan funds.
    Mr. Blunt. Are there examples of communities who didn't 
have pilot programs who have gotten loan funds yet?
    Mr. Fields. Yes, those I just mentioned. Communities in 
Massachusetts and Minnesota and Indiana have gotten brownfields 
Revolving Loan Fund assistance, even though they were not a 
brownfields assessment pilot project.
    Mr. Blunt. Are you aware of that in Wisconsin, Ms. Foss, 
that that is possible?
    Ms. Foss. I think the distinction Mr. Fields may be making 
is those communities that got the Revolving Loan Fund did get 
some Federal assistance, and it may have been through the 
State. But it isn't, I don't think--and correct me if I'm 
wrong, Mr. Fields--broadly applicable to all communities. It is 
for those that got Federal funds somehow for brownfields, so it 
is still I think a little limited.
    Mr. Fields. She is correct. It does not include every 
community across America, but it does go beyond the brownfields 
assessment pilots to a universe of people who have had 
assessment activities. We think that having assessment work 
done does help facilitate identifying properties for a cleanup 
by having that assessment phase done first.
    Mr. Blunt. Thank you, Mr. Chairman.
    Mr. Upton. Well, thank you. Those buzzers indicate that we 
have a vote on the floor, which will coincide with the end of 
this hearing.
    I just want to say in conclusion that we appreciate all of 
you coming to Washington and testifying today. Again, your 
testimony is very helpful. We all have brownfields sites, and 
we want a brownfields program that works, and we want one that 
can be as flexible as possible to take the local input from our 
Mayors and county and State officials so that we can assure the 
taxpayers in fact that the work is getting done. We appreciate 
your willingness to try, as we all do, to achieve that goal at 
the end of the day.
    And I guess just from my side here, it seems like there is 
some frustration in that we all believe that you, Mr. Fields, 
have more flexibility than you have shown.
    I talked to Mr. Greenwood on this last vote on the floor, 
who is the sponsor of H.R. 2850. We intend to get a letter to 
you very soon pointing out that you do, in fact, have the 
authority to move forward.
    It would be nice to know, as we hear from cities both that 
have received funds, maybe a city that has received funds, but 
certainly others that expect to, that, in fact, you are willing 
to bend over backwards to make sure that common-sense solutions 
really can work. And the idea of someone commuting from New 
Hampshire to Connecticut I would bet doesn't make sense in most 
people's eyes. And if that is just one example, there have to 
be others. And your willingness to proceed on that front I 
think would be appreciated by all of us.
    Thank you very much.
    I might say that all members will have the opportunity to 
provide questions for the record, and obviously you will 
respond with regard to that one issue that we have raised.
    Thank you very much.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]


    [GRAPHIC] [TIFF OMITTED] T1041.070
    
    [GRAPHIC] [TIFF OMITTED] T1041.071
    
    [GRAPHIC] [TIFF OMITTED] T1041.072
    
    [GRAPHIC] [TIFF OMITTED] T1041.073
    
    [GRAPHIC] [TIFF OMITTED] T1041.074
    
    [GRAPHIC] [TIFF OMITTED] T1041.075
    
    [GRAPHIC] [TIFF OMITTED] T1041.076
    
    [GRAPHIC] [TIFF OMITTED] T1041.077
    
    [GRAPHIC] [TIFF OMITTED] T1041.078
    
    [GRAPHIC] [TIFF OMITTED] T1041.079
    
    [GRAPHIC] [TIFF OMITTED] T1041.080
    
    [GRAPHIC] [TIFF OMITTED] T1041.081
    
    [GRAPHIC] [TIFF OMITTED] T1041.082
    
    [GRAPHIC] [TIFF OMITTED] T1041.083
    
    [GRAPHIC] [TIFF OMITTED] T1041.084
    
    [GRAPHIC] [TIFF OMITTED] T1041.085
    
    [GRAPHIC] [TIFF OMITTED] T1041.086
    
    [GRAPHIC] [TIFF OMITTED] T1041.087
    
    [GRAPHIC] [TIFF OMITTED] T1041.088
    
    [GRAPHIC] [TIFF OMITTED] T1041.089
    

</pre></body></html>
